<html>
<title> - RISING HIGHWAY FATALITIES</title>
<body><pre>[Senate Hearing 110-186]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-186
 
                       RISING HIGHWAY FATALITIES

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                     APRIL 19, 2007--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                     U.S. GOVERNMENT PRINTING OFFICE

38-024 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001

                               __________

                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            TED STEVENS, Alaska
TOM HARKIN, Iowa                     ARLEN SPECTER, Pennsylvania
BARBARA A. MIKULSKI, Maryland        PETE V. DOMENICI, New Mexico
HERB KOHL, Wisconsin                 CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             MITCH McCONNELL, Kentucky
BYRON L. DORGAN, North Dakota        RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         JUDD GREGG, New Hampshire
RICHARD J. DURBIN, Illinois          ROBERT F. BENNETT, Utah
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              SAM BROWNBACK, Kansas
FRANK R. LAUTENBERG, New Jersey      WAYNE ALLARD, Colorado
BEN NELSON, Nebraska                 LEMAR ALEXANDER, Tennessee

                    Charles Kieffer, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

 Subcommittee on Transportation and Housing and Urban Development, and 
                            Related Agencies

                   PATTY MURRAY, Washington, Chairman
ROBERT C. BYRD, West Virginia        CHRISTOPHER S. BOND, Missouri
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 ARLEN SPECTER, Pennsylvania
RICHARD J. DURBIN, Illinois          ROBERT F. BENNETT, Utah
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
PATRICK J. LEAHY, Vermont            SAM BROWNBACK, Kansas
TOM HARKIN, Iowa                     TED STEVENS, Alaska
DIANNE FEINSTEIN, California         PETE V. DOMENICI, New Mexico
TIM JOHNSON, South Dakota            LAMAR ALEXANDER, Tennessee
FRANK R. LAUTENBERG, New Jersey      WAYNE ALLARD, Colorado
                                     THAD COCHRAN, Mississippi (ex 
                                         officio)

                           Professional Staff

                              Peter Rogoff
                            William Simpson
                          Meaghan L. McCarthy
                             Rachel Milberg
                         Jon Kamarck (Minority)
                      Matthew McCardle (Minority)
                        Ellen Beares (Minority)

                         Administrative Support
                              Teri Curtin

                            C O N T E N T S

                              ----------                              
                                                                   Page

                        Thursday, April 19, 2007

Opening Statement of Senator Patty Murray........................     1
Opening Statement of Senator Christopher S. Bond.................     4
Statement of Hon. Nicole R. Nason, Administrator, National 
  Highway Traffic Safety Administration, Department of 
  Transportation.................................................     7
    Prepared Statement of........................................     8
Highway Safety Challenges........................................     8
Fiscal Year 2008 Budget Request Summary..........................    10
Behavioral Safety................................................    11
Vehicle Safety...................................................    11
National Driver Register.........................................    11
Highway Safety Grants............................................    12
Support of the President's Management Agenda.....................    12
Statement of Hon. John H. Hill, Administrator, Federal Motor 
  Carrier Safety Administration, Department of Transportation....    13
    Prepared Statement of........................................    14
Safety is Number One.............................................    14
Safety Partnerships With States..................................    15
TACT Programs....................................................    15
Safety Grants to States..........................................    15
Safety at the Border.............................................    16
Safety Through Innovative Technology.............................    16
Safety Priorities--Fiscal Year 2008..............................    16
Driver Focus.....................................................    17
Bus Safety.......................................................    17
Comprehensive Safety Analysis 2010 and COMPASS...................    18
Organizational Excellence........................................    18
Statement of Hon. Mark V. Rosenker, Chairman, National 
  Transportation Safety Board....................................    19
    Prepared Statement of........................................    20
Safety Issues....................................................    21
NTSB Appropriations..............................................    24
Questions Submitted to Hon. Nicole R. Nason......................    39
Questions Submitted by Senator Frank R. Lautenberg...............    39
Questions Submitted to Hon. John H. Hill.........................    40
Questions Submitted by Senator Patty Murray......................    40
Questions Submitted by Senator Frank R. Lautenberg...............    41
Questions Submitted to Hon. Mark V. Rosenker.....................    42
Questions Submitted by Senator Frank R. Lautenberg...............    42


                       RISING HIGHWAY FATALITIES

                              ----------                              


                        THURSDAY, APRIL 19, 2007

                           U.S. Senate,    
 Subcommittee on Transportation and Housing
       and Urban Development, and Related Agencies,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:03 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Patty Murray (chairman) presiding.
    Present: Senators Murray and Bond.


               opening statement of senator patty murray


    Senator Murray. We will come to order.
    Today, we are going to take testimony on the tragic trend 
of rising fatalities on our Nation's highways. Right now, an 
average of 119 people die every day in motor vehicle crashes. 
That means that every 12 minutes, a father, a mother, a 
brother, a sister, or a child is stolen from the American 
family.
    Motor vehicle crashes are the leading cause of death for 
Americans between the ages of 3 and 33. They remain one of the 
top five leading causes of death for middle-aged Americans.
    During our first subcommittee hearing held back in 
February, I reminded Transportation Secretary Mary Peters that 
when she served as Federal Highway Administrator in 2003, she 
noted that there were 41,000 highway fatalities that year. She 
concluded that our country was facing a national safety crisis. 
Unfortunately, since 2003 the number of annual fatalities has 
now risen to 43,400. The crisis has not abated. It has 
worsened.
    And even more worrisome than the raw number of people being 
killed on our highways is the fact that for the first time in 
several years the fatality rate--the statistical likelihood 
that a citizen will be killed on our highways--has actually 
increased. After many years of slow but steady progress, the 
numbers are now going in the wrong direction.
    If we are going to get back on track to reducing highway 
fatalities, it is clear that the old solutions are not going to 
be enough. Only half of the States have enacted primary 
seatbelt laws. And as we learned in the recent incident 
involving our former colleague, Governor Corzine, it is not 
enough just to enact primary seatbelt laws. These laws, like 
the posted speed limits, need to be respected and enforced.
    But there are many other factors that add to our rising 
fatality rate. Not enough States are taking repeat drunk 
drivers off the road permanently. And not enough States are 
requiring safe practices by our motorcyclists.
    We need some new and innovative solutions. And the Federal 
Government needs to be a partner in these solutions.
    I am very disappointed to see that rather than exhibiting 
leadership and attacking the problem, the Bush administration 
appears to be retreating. A few years ago, the Bush 
administration itself established the admirable goal of 
reducing the highway fatality rate to 1 per 100 million vehicle 
miles traveled by 2008. But rather than put forward bold new 
initiatives to reach that goal, the Bush administration has 
decided to weaken the goal and delay it until 2011.
    Rather than just admitting defeat, the administration 
should be redoubling its efforts and putting forward proposals 
that will truly alter the behavior of drivers, pedestrians, and 
even Federal enforcers and regulators.
    Testifying before us this morning are the administration's 
two principal point people on highway safety. Nicole Nason is 
the Administrator of the National Highway Traffic Safety 
Administration (NHTSA). John Hill serves as our chief truck 
safety official, the Administrator of the Federal Motor Vehicle 
Carrier Safety Administration (FMCSA).
    I am also pleased that we are joined by Mark Rosenker. He 
is the Chairman of the National Transportation Safety Board 
(NTSB). This is his first appearance before this subcommittee.
    The NTSB is probably best known for its work investigating 
aviation crashes, but its work in recommending safety 
improvements on our highways actually impact a great many more 
travelers. The NTSB has no regulatory or enforcement functions, 
but they do carry extraordinarily important responsibilities in 
investigating accidents and making recommendations for safety 
improvements to Federal and State agencies and transportation 
operators to ensure a safer transportation network.
    When the NTSB makes a recommendation to a Federal agency, 
we expect that Federal agency to take notice. And when the NTSB 
puts that recommendation on its list of most wanted safety 
recommendations, we expect that Federal agency to act promptly.
    Finally, when the NTSB determines that an agency's response 
to one of their most wanted safety recommendations is 
unacceptable, this subcommittee wants answers. We want to know 
why the agency is turning a blind eye to the NTSB.
    Two of the NTSB's most wanted recommendations have been 
directed at Mr. Hill's truck safety agency. And the NTSB has 
determined that Mr. Hill's response to both has been 
unacceptable. This morning, I want to find out why.
    Recently, here in the Washington, DC area, we learned the 
tragic results of weak and ineffective truck safety 
enforcement. The Washington Post recently revealed the case of 
a trucker who had racked up traffic citations in seven States. 
In one of those States, the license of the truck driver had 
been suspended seven times in 11 years. In fact, he was driving 
on a suspended license at the time he crashed into a passenger 
vehicle on the Capitol Beltway, killing a 33-year-old father of 
two.
    The truck driver was cited for reckless driving and he may 
face more serious charges as a result of that accident. That 
truck driver was in the employ of a trucking company called BK 
Trucking. Prior to the accident, BK Trucking firm was already 
on the watch list for the Federal Motor Carrier Safety 
Administration because of an unusually high number of accidents 
and deficient inspections.
    A little more than 3 weeks before that Beltway accident, 
the FMCSA did a full scale compliance review on BK Trucking. 
They found a few problems, mostly with log books but otherwise 
found no violations that the agency described as critical or 
acute. That was before the fatal accident.
    Three days after this awful tragedy, the FMCSA paid another 
call on BK Trucking and discovered the following violations, 
improper lease agreements; lack of compliance with drug and 
alcohol testing procedures; using drivers with suspended 
commercial drivers licenses; failure to maintain records of 
State inspections; maintaining false log books; failure to turn 
in log books; and failure to prepare driver inspection reports.
    So just 1 month after the FMCSA conducted a compliance 
review and found only minimal problems, the agency did another 
compliance review and found multiple violations and wrote up 
fines totaling $77,000.
    Now I do not doubt that the second compliance review 
conducted after the fatality was thorough. But I have serious 
doubts about the thoroughness of the compliance review that 
took place less than 1 month before that fatality. Are we 
really supposed to believe that the conditions at that trucking 
firm deteriorated so rapidly in just 30 days? How is it that 
the first compliance review resulted in no violations, and the 
second one, after the fatality, revealed an endless list of 
problems, violations and fines?
    I suspect the answer to those questions also explains why 
the National Transportation Safety Board has determined that 
the FMCSA's compliance review process is, in their words, 
``ineffective.'' I also suspect it explains why the NTSB has 
determined that the FMCSA responses to its recommendations in 
this area have been unacceptable.
    Let me be clear: Our Nation's economy depends on a safe, 
efficient and well-capitalized trucking industry. In my home 
State of Washington, our farmers depend on these trucks to get 
their agricultural products in eastern Washington across the 
Cascade Mountains to the ports of Seattle and Tacoma in a safe 
and timely manner.
    And American consumers have come to expect a great variety 
of options as they peruse the shelves at their retail outlets 
and supermarkets. Those goods do not get to those shelves by 
magic. They get there by truck.
    But just as we need to make a more aggressive posture in 
getting people to buckle up their seatbelts, and drink and 
drive responsibly, we also need a truck safety agency that will 
find the problems with rogue trucking companies before 
fatalities occur, not after.
    With that, I would like to turn it over to my ranking 
member, Senator Bond, for his opening statement.


            opening statement of senator christopher s. bond


    Senator Bond. Good morning, and thank you, Madam Chair.
    I welcome the witnesses and look forward to hearing their 
testimony on how the Department of Transportation (DOT) 
agencies believe we can make our highways and roads safer. 
While we are not the Senate Commerce Committee, who has 
legislative oversight over motor carriers vehicle safety and 
truck safety, I believe there are ways where we on this 
subcommittee can put our limited dollars behind programs that 
can and will save lives.
    Madam Chair, you have mentioned the distressing number of 
bus and truck fatalities of late, and I think it is very 
appropriate we focus on highway fatalities and these recent 
accidents, further highlighting the need for additional efforts 
and better efforts to bring down our Nation's death toll.
    It is both the administration's and Congress' duty to 
commit to solutions that will reduce highway fatalities of our 
Nation's traveling public. The deaths, 43,443 Americans last 
year, 2.7 million more injured, cannot be ignored.
    I commend the NHTSA and the FMCSA for efforts to reduce the 
death toll. I believe we have some success stories, but there 
are clearly areas that need improvement.
    Unfortunately, we will always face some unnecessary deaths 
on our Nation's highways because of human factors, driving and 
behavior which are very difficult to prevent. But heavy 
criminal penalties should serve as a deterrent to the 
individual bad judgments and bad actions that cannot be cured 
by regulation or inspection.
    I was interested when the DOT announced the final rule on 
electronic stability control, or ESC, crash prevention 
technology, to make it standard equipment on every new vehicle 
sold by 2012. I am sure that Administrator Nason will go into 
detail about this lifesaving measure. It is estimated to 
potentially save up to 10,000 lives per year.
    I applaud this effort and the administration for issuing 
this final rule some two years earlier than anticipated.
    This technology will be second only to seatbelts, making 
our vehicles, our motor vehicles and other forms of 
transportation the safest they have ever been in history.
    Still, everyone knows the number one safety measure to save 
lives is a seatbelt and shoulder harness. Good friends of mine 
who are state troopers--and I got to know a lot of them--have 
told me that they never unbuckled a dead person from a safety 
harness seatbelt. They found lots of dead people who had not 
had on belts and restraints.
    When I was Governor, I always instructed the troopers 
driving me to obey the speed limits, and I always wore a 
shoulder harness and a seatbelt, which saved me from serious 
injury at a crash involving a driver who ran through a stop 
sign and broadsided us. But unfortunately, not everybody has 
gotten the message yet.
    And on another area, we have seen a significant increase in 
the number of fatalities and deaths associated with 
motorcycles. Many of my colleagues believe that in order to 
save additional lives we must mandate the States to implement 
primary seatbelt laws and mandatory motorcycle helmets.
    While I believe it is important that people understand the 
importance of seatbelts and motorcycle helmets, I have great 
questions about the Federal Government sanctioning States in 
order to get people to use seatbelts or motorcycle helmets. 
Sanctions are essentially Federal blackmail by Congress, who is 
telling the State ``We are not going to return the money you 
pay into the Federal Highway Trust Fund because we in the 
District of Columbia know your job as Governors and State 
legislators better than you do.'' Well, that is the purpose of 
electing folks at the State and local level, to represent their 
constituents in the legislature and in the Governor's office.
    When I was Governor, at several points I unfortunately had 
to spend a lot of time looking at federally imposed mandates. 
Many of them did not make any sense. I will not go into the 
list of them here, but they covered a wide range of areas.
    I came up here to work with States. I did not come up here 
to tell the States ``We are going to withhold your money unless 
you take all of our ideas.''
    During the debate on safety authorization, there were some 
who wanted the Federal Government to impose mandates and 
withhold funds to achieve seatbelt enforcement and motorcycle 
helmets. They were unsuccessful. I opposed imposing that kind 
of Federal mandate.
    At the time, only 20 States had primary seatbelt laws in 
place. Since then, five States have decided on their own, 
without the help of Washington, to adopt primary seatbelt laws.
    In addition, section 406 incentive grants have helped to 
persuade even hold-out States, like the Live Free or Die State 
of New Hampshire, to move toward adopting a primary seatbelt 
law. Nationwide, usage rates are 82 percent. And I believe, 
based on driver education, these rates will increase even 
higher.
    I think we need to remember that we cannot make people wear 
seatbelts even with primary seatbelt laws. New Jersey had a 
primary seatbelt law and regrettably our former colleague, 
Governor Corzine might not be in the condition he is in today 
had he been wearing his seatbelt and his trooper had been 
obeying the speed limit.
    My own State of Missouri has made great strides in seatbelt 
use, and this has been done without a primary seatbelt law. Our 
current use rate is 75.2 percent. And I hope, with education, 
we can improve that over time. But whether or not to adopt a 
primary seatbelt law in Missouri should be determined by those 
people elected by the citizens of our State. I hope they will. 
I honestly hope they will.
    Despite a Federal repeal of the Federal helmet law in 1998, 
Missouri legislators and Governor have chosen to keep our 
existing helmet law in place. And I think that was a very good 
idea.
    In the area of drunk driving safety--drunk driving, SAFETEA 
provided an important step in reducing highway fatalities and 
injuries. And Congress and the administration have made a 
significant commitment to combat drunk driving.
    In 2005, only $40 million was provided for incentives for 
alcohol-impaired driver counter measures. This year, the 
program is receiving $125 million, and will continue to grow 
over the life of the bill.
    High visibility campaigns and enforcement work effectively 
to make people think before they drink and drive. Obviously, 
some people are repeat offenders, where alcohol is an illness. 
But most people with education and knowledge will understand 
the risk drinking poses to themselves and other drivers on the 
road.
    Since the creation of FMCSA, we have seen a large increase 
in resources made available to reduce the number of truck-
related fatalities, and we are beginning to see results. The 
truck fatality rate, I understand, is 16 percent less today 
than it was 10 years ago. Over that same 10-year period, 
vehicle miles traveled had increased by over 24 percent.
    Funding for FMCSA, established as a separate administration 
on January 1, 2000, has increased from $280 million in 2001 to 
$528 million in 2008, or an 89 percent increase for the primary 
mission of reducing crashes, injuries and fatalities involving 
large trucks and buses.
    Like NHTSA, FMCSA is working on a truck vehicle safety 
hardening, such as crash avoidance systems, electronic on-board 
recorders, where we can monitor the number of hours a truck is 
in operation, and whether drivers are meeting their hours of 
service requirements.
    FMCSA is also awaiting a court review on the hours of 
service regulations, which could come any day. This rule is 
designed as an enforceable science-based rule to maintain high 
safety standards.
    I understand they are also working to issue regulations on 
medical certification standards, with recent discussions about 
special needs drivers. I hope that they will take a look at 
whether there is a problem with drivers who cannot or are 
unable to follow the laws and the rules of the road. We hope 
that preventing medically unqualified drivers from operating 
commercial vehicles will be achieved. I know this is on the 
NTSB's most wanted list. And I am pleased to see they are 
moving quickly.
    I also know FMCSA has a 2010 initiative to provide 
additional safety requirements going after the worst carriers 
and drivers, getting them off the road. It should enable them 
to move beyond the current review of 2 percent of all trucks to 
a comprehensive review of some 60,000 to 75,000.
    We have seen a temporary plateau in the number of related 
fatalities, but it is not enough to stay where we are. We need 
to bring it down and we hope the agencies can move forward to 
reduce the number of fatalities.
    The fatalities have decreased as the Motor Carrier Safety 
Administration has increased enforcement of its regulations 
through compliance reviews and enforcement action.
    Investments in state and local law enforcement to go after 
our worst offenders has been working, but there is always more 
we can do.
    I thank you, Madam Chair.
    Senator Murray. Thank you, Senator Bond.
    We will now turn to our three witnesses. And we will begin 
with Nicole Nason, the Administrator of the National Highway 
Traffic Safety Administration.
    Before you begin, each of you will have 5 minutes to give 
your testimony. We will try and keep you to your timeline, so 
we can ask adequate--have adequate time for questions. So that 
you know, all of your testimony will be submitted fully for the 
record for all of our members.
    Ms. Nason.
STATEMENT OF HON. NICOLE R. NASON, ADMINISTRATOR, 
            NATIONAL HIGHWAY TRAFFIC SAFETY 
            ADMINISTRATION, DEPARTMENT OF 
            TRANSPORTATION
    Ms. Nason. Madam Chairman, Senator Bond, thank you for the 
opportunity to testify about the Nation's traffic safety 
priorities and NHTSA's budget request for fiscal year 2008.
    NHTSA is requesting $833 million for fiscal year 2008, a 
net request of $18 million over last year. Because of time 
constraints, I would like to speak to three areas today, which 
we believe hold great promise to arrest the Nation's rising 
highway fatalities: First, NHTSA's work to encourage greater 
deployment of crash avoidance technologies; second, our renewed 
commitment to end impaired driving; and third, our proposal to 
responsibly raise fuel economy standards in a way that does not 
decrease safety.
    First, I am pleased to report that, earlier this month, 
Secretary Peters and I announced the final rule mandating 
electronic stability control on all passenger vehicles by 2011. 
Due to the hard work of our vehicle safety team at NHTSA, this 
rule was finalized nearly 2 years ahead of its statutory 
deadline.
    Electronic stability control is a revolutionary technology, 
because it helps the driver avoid the crash altogether. This 
technology is especially effective at reducing rollovers, one 
of the most deadly types of crashes, particularly for SUV's.
    Each year, 3 percent of traffic crashes involve rollover, 
but they count for one-third of all occupant deaths. NHTSA 
estimates that ESC will save between 5,000 and 9,600 lives 
annually when fully deployed on the fleet. And as Senator Bond 
noted, we believe it could prove to be the greatest vehicle 
safety innovation since the seatbelt.
    Crash avoidance technologies like ECS are just the 
beginning of what we hope is a new era in highway safety, where 
many crashes and the pain and suffering from those crashes are 
prevented outright.
    We are also renewing our commitment to reductions in 
impaired driving fatalities. Last November, I was honored to be 
asked to serve as the honorary chair of the campaign to 
eliminate drunk driving by Mothers Against Drunk Driving 
(MADD). This new campaign has brought together law enforcement, 
auto makers, MADD, and responsible distilled spirits companies 
to address this tragic problem.
    I have great hopes for this campaign, not only because it 
builds on what we know to be effective, vigorous enforcement 
coupled with a national media campaign, but also because of its 
embrace of alcohol ignition interlocks. These devices, which 
are now installed on about 100,000 cars of driving under the 
influence (DUI) offenders, prevents the impaired motorist from 
driving the car in the first place.
    We believe current research can produce a new generation of 
the interlocks that will be noninvasive and much more reliable. 
Large-scale deployment of this technology coupled with 
continued law enforcement offers the very real prospect that 
one day drunk driving could be a thing of the past.
    Finally, our budget requests an additional $600,000 in 
anticipation of conducting a rulemaking to boost passenger car 
fuel economy standards responsibly. This proposal has many 
benefits over the current flawed system, such as spreading the 
regulatory burden among all manufacturers; maintaining consumer 
choice; helping to ensure that every type of car, whether 
small, midsized, or large, becomes more fuel efficient; and 
most importantly, this proposal ends the trade-off between 
sacrificing safety for better fuel economy.
    Our legislation ends the so-called CAFE safety penalty, by 
encouraging auto makers to boost fuel economy not by downsizing 
vehicles, but by adding fuel-saving technologies. The 2002 
National Academy of Science's study on fuel economy found that 
the CAFE statute was responsible in part for an additional 
1,300 to 2,600 traffic fatalities in the year 1993, the year 
they looked at, because of downsizing and down-weighting of 
vehicles.
    If the administration's proposal is enacted by Congress, no 
longer will increasing passenger car fuel economy mean a 
decrease in safety.
    Madam Chairman, anything but a reduction in our annual 
fatalities is cause for alarm. That is why it is important that 
we continue our progress researching and deploying crash 
avoidance technologies, while wisely using the resources 
provide by Congress under SAFETEA-LU and this subcommittee to 
enhance our behavioral programs. These are the best tools that 
we have right now to lower fatalities over the long term.


                           prepared statement


    Thank you again. I look forward to working with all of the 
members of the subcommittee on this important issue. And I 
would be pleased to answer any questions.
    Senator Murray. Thank you very much.
    [The statement follows:]
               Prepared Statement of Hon. Nicole R. Nason
    Good morning Chairman Murray, Senator Bond, and distinguished 
members of the subcommittee. It is my pleasure to appear before you 
today to discuss the President's fiscal year 2008 budget for the 
National Highway Traffic Safety Administration (NHTSA) and to highlight 
for you some of the initiatives we have underway and planned for 2008.
    NHTSA is charged with the responsibility of assuring the safety of 
vehicles and drivers on the roadways of America. We appreciate the 
support this subcommittee has provided NHTSA in the past by funding our 
programs and activities.
                       highway safety challenges
    In 2005, 43,443 people in the United States lost their lives in 
traffic-related crashes. Additionally, approximately 2.7 million 
individuals are injured in traffic-related crashes annually. Traffic-
related fatalities are the leading cause of death for Americans in age 
groups 4 through 34. They also represent a staggering economic cost of 
about $230 billion annually, or 2.3 percent of the U.S. gross domestic 
product.
    The good news for America is that motor vehicles today are the 
safest in history. A 2004 study by NHTSA showed that vehicle safety 
technologies saved an estimated 328,551 lives from 1960 through 2002. 
The annual number of lives saved grew steadily from 115 in 1960, when a 
small number of people used seat belts, to 24,561 in 2002, when most 
cars and light trucks were equipped with modern safety technologies and 
seat belt use achieved 75 percent. Currently seat belt use stands at 81 
percent.
    To continue to improve the safety of vehicles, I am pleased to 
report that earlier this month Secretary Mary Peters and I announced 
the release of a final rule to require electronic stability control 
(ESC) on all new passenger vehicles starting in 2009, with 100 percent 
compliance by 2011. This technology, when fully deployed, has the 
potential to save between 5,000 and 9,600 lives annually.
    Improving vehicle safety and reducing fatalities and injuries on 
the Nation's roads requires a comprehensive approach involving vehicle 
regulation, enforcement and behavior modification. Our areas of focus 
have been categorized into the following model shown below. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Keeping families safe when they drive is the core of NHTSA's 
mission, a goal shared by our local, State and national partners. 
Whether a new driver or a seasoned driver, everyone in the family has a 
responsibility to do all they can to make each and every ride as safe 
as possible. Parents must take responsibility by buckling their 
children in age appropriate restraints, and set the example themselves 
by buckling up. In February, NHTSA sponsored a public meeting on Lower 
Anchors and Tethers for Children (LATCH), furthering our commitment to 
ensure that appropriate child safety seats and technologies are 
available and properly used. Later this year we plan to host a meeting 
on school bus safety to address the safety issues in this important 
area.
    Parents must remain involved as their children learn to drive. 
Obeying speed limits, wearing a seat belt, avoiding driver distractions 
and not driving impaired should be standard operating procedure for all 
novice drivers. We are seeing very promising safety results from State 
graduated licensing programs, but parents continue to be key 
contributors to young driver safety by establishing and enforcing 
reasonable safety practices.
    As drivers mature, NHTSA programs help to promote safety among our 
Nation's seniors. Today, 35 million Americans are over age 65. By 2030, 
the population of those over 65 is expected to double to 70 million. 
NHTSA is developing efforts to maintain personal mobility for as long 
as drivers are safe to drive while also providing guidance for medical 
professionals and families to help older drivers assess their driving 
capability before a tragedy occurs.
    NHTSA also supports comprehensive Enhanced 9-1-1 technologies that 
provide system-wide improvements for communities to decrease response 
time and improve post-crash care. Enhanced Emergency Medical Services 
(EMS) technologies mitigate the injuries sustained by individuals in 
crashes, increasing the survivability of the incident. Our request 
includes $1.25 million to implement the E-911 coordination office and 
to provide technical support to the EMS community. Additionally, we 
request $250,000 to continue the development of the National EMS 
Information System (NEMSIS).
    The support of law enforcement is crucial to our mission. We work 
closely with State and national law enforcement organizations to find 
and share best practices in traffic law enforcement. In this area, we 
are planning meetings later this year to address law enforcement 
leadership and expanded use of ignition interlock devices as a means of 
ridding our highways of impaired drivers.
    NHTSA also coordinates with State and local law enforcement and 
other safety organizations to develop ways to decrease impaired driving 
and speeding, and increase safety belt use. Under SAFETEA-LU's High 
Visibility Enforcement programs, we added a third national mobilization 
effort starting in December 2006, and we developed a new tag line, 
``Drunk Driving. Over the Limit. Under Arrest.'' This is in addition to 
the agency's National Click It or Ticket mobilization that occurs each 
Memorial Day and the National Impaired Driving Crackdown that begins 
every August.
    Finally, we strongly support the reform of fuel economy standards 
for the passenger car fleet, similar to how we reformed the standards 
for the light truck fleet last year. As part of the President's ``20 in 
10'' proposal that he outlined in his State of the Union Address, NHTSA 
has submitted draft legislation to reform and increase the passenger 
corporate average fuel economy (CAFE) standards. We have also requested 
$598,000 in additional funding to provide the analysis and rulemaking 
support for these changes.
                fiscal year 2008 budget request summary
    For fiscal year 2008, NHTSA requests $833 million for its motor 
vehicle and highway safety programs and activities.
    Within the total figure requested, $711 million reflects the 
SAFETEA-LU authorized levels of contract authority for the Highway 
safety programs, grant programs, and the National Driver Register. The 
balance of $122 million reflects our requested level to fund the 
vehicle safety programs as contract authority, not general funding as 
specified in SAFETEA-LU. Legislation to amend SAFETEA-LU to authorize 
contract funding for the vehicle programs has been proposed by the 
Administration. This change will allow NHTSA to fund all of its 
programs and activities from a single source, the Highway Trust Fund. 
This is also consistent with the manner in which the vehicle safety 
program was funded in fiscal year 2004-2007.
    NHTSA's fiscal year 2008 request is $18 million more than the 
President's fiscal year 2007 request. Of this, $16.7 million will be 
used to align NHTSA's programs with the SAFETEA-LU authorized funding 
levels. The balance of $1.3 million includes increases to several 
programs and activities offset by decreases to other programs and 
activities. Increases include $1.1 million for research on crash 
avoidance technologies, $598,000 for analysis to support a reformed 
CAFE standard for passenger cars, $1.0 million for an E-911 
implementation office and the National EMS Information System (NEMSIS), 
$1.0 million to support NHTSA's priority rulemaking actions and $1.5 
million for normal inflation in salaries and administrative areas. 
These are partially offset by decreases such as $2.6 million to the New 
Car Assessment Program (NCAP) due to the completion of the testing 
schedule alignment in fiscal year 2007, and $500,000 to the 
biomechanics program due to the completion of work supporting an 
upgrade to the side-impact regulation.
                           behavioral safety
    For fiscal year 2008, NHTSA requests $107.75 million for its 
Behavioral safety programs and activities. This is $2.5 million above 
the fiscal year 2007 President's request, and the same as the level 
authorized in section 2001(a)(2) of SAFETEA-LU.
    After two consecutive years of decline in overall highway 
fatalities and impaired driving fatalities, and having achieved the 
lowest recorded fatality rate in history, the highway fatality rate per 
100 million vehicle miles traveled (VMT) rose slightly to 1.45 in 2005, 
up from 1.44 in 2004. Contributing to this figure is a 13 percent 
increase in motorcycle fatalities in 2005, up to 4,553 from 4,028 in 
2004. This marks an increase of 115 percent since 1997. NHTSA requests 
an increase of $192,000, (or 24 percent) to its motorcycle program 
funding to assist in addressing this problem.
    While the overall highway fatality rate has increased slightly, 
passenger vehicle occupant fatalities dropped by 451, from 31,866 in 
2004 to 31,415 in 2005, the lowest level since 1994. The number of 
young drivers (16-20) killed declined by 4.6 percent from 3,538 to 
3,374, and fatal crashes involving young drivers declined by 6.3 
percent from 7,431 to 6,964. The number of children up to age 15 dying 
in crashes also dropped from 2,622 in 2004 to 2,348 in 2005.
    In fiscal year 2007 and 2008, NHTSA is focusing attention on those 
areas that can be most effective in continuing the downward trends 
experienced in past years. NHTSA recognizes that success will not be 
accomplished by the agency alone, but through the work of our 
governmental and non-governmental partners and the everyday behaviors 
of our citizens. NHTSA is dedicated to behavioral programs that 
encourage citizens to reduce the tragic loss of life on our highways by 
simple, controllable actions such as buckling up, ensuring that their 
children are buckled up on every trip, not driving when impaired, 
wearing a motorcycle helmet that is DOT-compliant and other protective 
gear when operating a motorcycle, observing posted speed limits, not 
engaging in risky driver behavior and exercising parental 
responsibility by taking an active role in the driving education of 
teenagers.
    NHTSA requests a total of $3.82 million to increase the 
effectiveness of its EMS program. For fiscal year 2008, $2.32 million 
of this total will be used to maintain the agency's core programs, 
which support heightened National EMS leadership through the Federal 
Interagency Committee on EMS, as mandated by section 10202 of SAFETEA-
LU, in addition to continuing efforts to improve workforce capabilities 
of EMS personnel and assuring consistent nationwide EMS systems aimed 
at enhancing post-crash care of crash victims.
                             vehicle safety
    For fiscal year 2008, NHTSA requests $122 million for its Vehicle 
safety programs. Within the total of $122 million, NHTSA requests 
increases for several program initiatives, such as $1.1 million to 
conduct increased research on advanced crash avoidance technologies, 
and $1.0 million in support of priority rulemaking activities.
    Introduction of technology into the motor vehicle is occurring at 
an ever-increasing rate, providing consumers with greater choices in 
safety, ease-of-use and entertainment options. In addition to its 
traditional vehicle research, rulemaking, enforcement and safety defect 
investigation initiatives, NHTSA's Vehicle Safety programs will assess 
the lifesaving benefits of these emerging technologies as they enter 
into the vehicle fleet in fiscal year 2008 and beyond. The additional 
$1.1 million requested for advanced technology research will assist us 
in this effort.
    As mandated by section 10307 of SAFETEA-LU, NHTSA has published a 
rule requiring NCAP ratings on sales stickers of new vehicles, 
providing consumers with more information on the safety of new vehicles 
at the point of sale. The fiscal year 2008 requested level of $7.9 
million reflects the annual cost for testing vehicles under the NCAP 
program. The additional funds provided for NCAP in fiscal years 2006-
2007 were to re-align the testing schedule to allow for these sales 
stickers on the new vehicles. This alignment will be complete in fiscal 
year 2007, negating the requirement for additional NCAP funds in fiscal 
year 2008.
                        national driver register
    NHTSA requests $4 million for the National Driver Register program 
and associated activities, the same level requested in the President's 
fiscal year 2007 budget and authorized in SAFETEA-LU. This program 
supports NHTSA's safety mission by providing a credible source of 
vehicle driver records for use by State motor vehicle administrators in 
determining whether to issue or renew a license and for use by maritime 
and airline agencies and private industries. In addition, this 
information is becoming increasingly important for security background 
checks by the Office of Personnel Management.
                         highway safety grants
    In recognition of the role of the agency in delivering data-driven 
programs and countermeasures in highway safety, NHTSA is requesting 
funding for its grant programs at the SAFETEA-LU authorized levels. We 
request $599.25 million, an increase of $15.5 million above the 
President's fiscal year 2007 request. The Act extended several highway 
safety grant programs and created several more that will serve to 
improve safety, including new programs for safety belt performance 
(section 406), motorcycles (section 2010), child safety and booster 
seats (section 2011) and data/information systems (section 408).
    During fiscal year 2007 and fiscal year 2008, in addition to 
implementing the four new grant programs, continued attention will be 
given to NHTSA's core grant programs: section 402 Formula Grants, 
section 405 Occupant Protection Incentive grants and section 410 
Alcohol Impaired Driving Countermeasures Incentive Grants. Combined, 
these grant programs will provide States with the resources to 
implement strategies based on national data and analysis but tailored 
to meet the safety problems of diverse municipalities across the 
Nation.
    Additionally, the requested level includes the fully authorized 
funding of $29 million for the high visibility enforcement campaigns. 
NHTSA will conduct three campaigns annually and the additional funds 
above the fiscal year 2007 requested level represent the SAFETEA-LU 
authorized funding level to provide three campaigns.
    Finally, grant administrative expenses are requested at the 
authorized level of $18.25 million. These funds cover a proportionate 
share of NHTSA's salaries and administrative costs in support of the 
highway safety grant programs; provide full funding for the annual 
National Occupant Protection Use Survey (NOPUS) and provide partial 
funding for the Highway safety research program.
              support of the president's management agenda
    NHTSA continues to fully support all of the initiatives contained 
in the President's Management Agenda (PMA). As evidenced by our fiscal 
year 2008 congressional justification, NHTSA assures a direct linkage 
of plans, programs and budgets, one of the most important tenets of the 
PMA. NHTSA is a data-driven and science-based agency. Funding and 
program decisions are based on maximizing lives saved and reducing the 
severity of injuries and supporting DOT and NHTSA goals and objectives 
in quantifiable ways.
    In partnership with the other trust-funded DOT agencies, NHTSA has 
enjoyed a ``clean'' unqualified audit opinion for 8 years in a row. In 
response to recent OMB guidance on internal controls (Circular A-123), 
NHTSA has initiated an aggressive internal management control program 
to fully document all processes and activities, identify any weaknesses 
and mitigate them to acceptable risk levels.
    NHTSA also fully participates with the Department to implement 
technology where it sees benefits. Included are recent efforts to 
automate the procurement, invoicing, payroll, personnel and travel 
activities in conjunction with other DOT agencies. Also, NHTSA recently 
integrated all its desktop support, e-mail, and infrastructure within 
DOT's common operating environment in anticipation of the move to the 
new DOT headquarters building. Future efforts will include integration 
and standardization of grants processing and administration as well as 
document management. All IT investments made by NHTSA are reviewed and 
approved by a senior management governance structure to assure optimal 
use of the limited investment funding and full integration within the 
DOT infrastructure.
                               conclusion
    Previous safety efforts by NHTSA, such as identifying safety 
technologies, issuing safety rules, modifying driving behaviors and 
educating the public on motor vehicle safety have significantly reduced 
the safety problem over time. These efforts have also resulted in motor 
vehicles today that are the safest in history and behaviors that are 
the safest in history, such as near record seat belt usage. Still, with 
over 43,000 annual deaths resulting from motor vehicle crashes, NHTSA's 
work is far from complete. Accordingly, we respectfully request support 
for the President's budget so our life-saving work may continue.

    Senator Murray. We will now hear from John Hill, the 
Administrator of the Federal Motor Carrier Safety 
Administration.
STATEMENT OF HON. JOHN H. HILL, ADMINISTRATOR, FEDERAL 
            MOTOR CARRIER SAFETY ADMINISTRATION, 
            DEPARTMENT OF TRANSPORTATION
    Mr. Hill. Good morning, Chairman Murray, Ranking Member 
Bond, and members of the subcommittee. Thank you for inviting 
me to testify before you today.
    I am pleased to describe how the Federal Motor Carrier 
Safety Administration is working to make the Nation's highways 
safer.
    The good news is that the past 2 years we, as a Nation, 
achieved the lowest truck fatality rate in 30 years. This means 
that despite trucks traveling more miles, over 7 percent in the 
past 5 years, the proportion of fatalities is down. However, we 
know that despite these gains, we are not seeing a drop in 
overall fatalities. To meet this daunting challenge, we are 
finding innovative ways to increase safety on our Nation's 
highways.
    We initiated a program recently in cooperation with the 
National Highway Traffic Safety Administration called Ticketing 
Aggressive Cars and Trucks, or TACT, which was carried out in 
the State of Washington.
    Working with the State Trucking Association, troopers 
conducted a high visibility enforcement campaign to reduce 
unsafe driving behavior in and around large trucks. The program 
included a high profile media campaign to build awareness and 
educate drivers about the hazards of driving around commercial 
motor vehicles.
    Based upon TACT's success, FMCSA will expand the program to 
selected States with the highest fatality and crash rates. In 
fact just this month, I traveled to Kansas to assist in the 
announcement of the Kansas Highway Patrol's Trucks on Patrol 
for Safety, or TOPS, Program based directly on the success of 
the TACT model that we used in Washington.
    We now have 22 States conducting some form of non-
commercial vehicle program using the SAFETEA-LU provisions that 
were enacted in 2005.
    We will also work with our stakeholders from the trucking 
and motor coach industries and the many committed safety 
advocate organizations to find innovative solutions. We will do 
this through our newly chartered advisory committees, the 
Commercial Driver's License Task Force and the Motor Carrier 
Safety Advisory Committee.
    FMCSA's fiscal year 2008 budget reflects that safety is our 
number one priority. The largest share, $489 million or 93 
percent, focuses directly on enforcement programs to reduce 
large truck and bus crashes.
    In addition to our own efforts, we partner with the States 
by providing them grants to enforce commercial truck and bus 
safety laws, with special attention to motor coach companies 
and carriers registered as hauling hazardous materials.
    Of the $489 million, $300 million will go to grant 
programs, including more than $202 million for Motor Carrier 
Safety Assistance Program grants; $32 million for border 
enforcement activities; and $25 million for improvement of CDL 
activities.
    FMCSA's oversight programs are producing results. In fiscal 
year 2006, FMCSA and our State partners conducted over 15,000 
compliance reviews. These compliance reviews resulted in the 
initiation of more than 4,000 enforcement actions. FMCSA found 
over 1,000 companies deficient to the extent we placed their 
operations out-of-service. And we estimate that the compliance 
reviews conducted in 2004 resulted in over 2,700 fewer crashes, 
nearly 2,000 fewer injuries, and over 100 fewer fatalities.
    In addition to conducting review of carrier operations, 
FMCSA and our State partners conducted over 3 million roadside 
inspections of high risk carriers' vehicles during fiscal year 
2006. As a result of these inspections, approximately 220,000 
drivers were removed and placed out of service until serious 
violations could be remedied, while approximately 547,000 
unsafe vehicles from our highways were also removed.
    Again, we know from previous analysis that roadside 
inspections prevent crashes and save lives. We estimate that 
the roadside inspections conducted in 2005 resulted in over 
18,000 fewer crashes, approximately 13,000 fewer injuries, and 
approximately 700 fewer fatalities.
    While we recognize there is still much work to be done to 
make our highways safer, we believe safety results from these 
programs.
    Madam Chairman, I wish to express my appreciation for all 
that this subcommittee has done in supporting our agency. In 
our 7 years as an independent agency, we have made strides 
toward reducing fatalities and injuries on our Nation's 
highways. Your continued investment in the agency will result 
in added safety emphasis on our Nation's highways.

                           PREPARED STATEMENT

    I look forward to working with you and achieving our mutual 
goals and would be happy to respond to your questions.
    Thank you.
    Senator Murray. Thank you very much, Mr. Hill.
    [The statement follows:]
                Prepared Statement of Hon. John H. Hill
    Good Morning Chairman Murray, Ranking Member Bond, and Members of 
the Committee. Thank you for inviting me to testify before you. I am 
pleased to describe how the Federal Motor Carrier Safety Administration 
(FMCSA) is working to make the Nation's highways safer as it relates to 
commercial vehicle operations. The good news is that for the past two 
years, we as a nation achieved the lowest large-truck fatality rate in 
30 years. However, we know that despite these gains, we are not seeing 
a drop in overall fatalities. This means that despite more trucks 
traveling more miles--over 7 percent in the past five years--the 
proportion of fatalities is down.
    To meet this daunting challenge we are innovating. We will increase 
our effectiveness and efficiency and we will continue to leverage the 
talents and resources of our State partners. We will also work closely 
with our stakeholders from the trucking and motorcoach industries, and 
the many committed safety advocate organizations through our newly 
chartered advisory committees, the Motor Carrier Safety Advisory 
Committee and the Commercial Driver's License (CDL) Task Force.
                          safety is number one
    The largest share--$489 million or 93 percent--of our budget 
focuses on reducing large truck and bus crashes. In addition to our own 
efforts, we partner with the States by providing them grants to enforce 
commercial truck and bus safety laws, with special attention to 
motorcoach companies and carriers registered as hauling hazardous 
materials.
    FMCSA's oversight programs are producing results. In fiscal year 
2006, FMCSA and our State Partners conducted 15,177 compliance reviews. 
These compliance reviews resulted in 4,195 enforcement actions being 
initiated. FMCSA found 1,035 companies deficient to the extent that we 
placed their operations out-of-service. We know from analysis of our 
compliance review programs that after a compliance review, carriers 
improve their safety operations. We estimate that the compliance 
reviews conducted in 2004 resulted in over 2,700 fewer crashes, 
approximately 1,900 fewer injuries, and over 100 fewer fatalities.
    In addition to conducting reviews of carrier operations, FMCSA and 
our State partners also conducted over 3 million roadside inspections 
of high risk carriers' vehicles during fiscal year 2006. As a result of 
these inspections, we placed approximately 220,000 drivers out-of-
service until serious violations could be remedied. We also removed 
approximately 547,000 unsafe vehicles from our highways. Again, we know 
from previous analysis that roadside inspections prevent crashes and 
save lives. We estimate that roadside inspections conducted in 2005 
resulted in over 18,000 fewer crashes, approximately 13,000 fewer 
injuries, and approximately 700 fewer fatalities.
    While we recognize there is still much work to be done to make our 
highways safer, FMCSA is proud of the safety impact resulting from 
these programs.
                    safety partnerships with states
    In SAFETEA-LU Congress provided us new authority to allow Motor 
Carrier Safety Assistance Program (MCSAP) Grants to be used for traffic 
enforcement on commercial motor vehicles (CMVs) without an accompanying 
safety inspection. The authority also allows reimbursement of traffic 
enforcement against non-CMVs when such actions are necessary to improve 
CMV safety (i.e., cars driving unsafely around trucks).
    This new direction is consistent with the findings of FMCSA's long-
term crash causation studies, and other similar studies, that have 
identified driver behavior as the leading causal factor in all crashes. 
It also addresses findings in those same studies that identify the non-
CMV driver as the causal factor in a majority of CMV/non-CMV crashes. 
By expanding this traffic enforcement authority, FMCSA and its State-
partners are able to reach out to a broader population of law 
enforcement organizations in an effort to improve delivery of the 
program and achieve FMCSA's goal of reducing fatal crashes.
                             tact programs
    In cooperation with the National Highway Traffic Safety 
Administration, we recently piloted the Ticketing Aggressive Cars and 
Trucks or ``TACT'' program in the State of Washington. Working with the 
State trucking association, troopers conducted a high visibility 
enforcement campaign to reduce unsafe driving behavior in and around 
large trucks. The program included a high profile media campaign to 
build awareness and educate drivers about the hazards of driving around 
commercial motor vehicles.
    The first TACT pilot program was successful in large part due to 
the cooperative efforts of DOT, State, and local law enforcement 
agencies that were involved. The evaluation showed a considerable 
reduction in unsafe driving behaviors on the designated enforcement 
corridors. Based upon its success, FMCSA will expand TACT to selected 
States with the highest fatality and crash rates. In fact just this 
month, the State of Kansas begins its Trucks on Patrol for Safety 
(TOPS) program based directly on the success of TACT in Washington. 
These programs demonstrate the effectiveness of combining high-
visibility enforcement with education and communication. FMCSA will 
print and disseminate the TACT ``How to Guide'' to State agencies 
nationwide and encourage all MCSAP States to adopt this successful 
program or some form of non-CMV enforcement as allowed in SAFETEA-LU.
                        safety grants to states
    In fiscal year 2008, FMCSA will provide $300 million in grants, 
including the Border Enforcement Grants Program to the following areas:
  --$202 million for Motor Carrier Safety Assistance Program (MCSAP) 
        Grants enabling States to conduct more than 2 million roadside 
        driver and vehicle inspections and more than 5,000 compliance 
        reviews. This includes $29 million to be used towards 28,500 
        State-conducted New Entrant Audits as authorized by SAFETEA-LU;
  --$25 million for improvement of State CDL activities to prevent 
        unqualified drivers from being issued or maintaining a CDL;
  --$5 million for management and operations of the Performance 
        Registration Information Systems and Management (PRISM) 
        program, linking State commercial motor vehicle registration 
        systems with carrier safety performance data to identify unsafe 
        commercial motor carriers and prevent them from registering 
        their vehicles;
  --$25 million for the Commercial Vehicle Information Systems and 
        Networks (CVISN) grants towards improving the exchange of 
        safety information, electronic screening of trucks and buses at 
        the roadside and the administration of interstate credentials;
  --$3 million for safety data improvement grants which are vital for 
        the correct identification of high risk carriers; and
  --$8 million for modernization efforts of the Commercial Driver's 
        License Information System (CDLIS).
                          safety at the border
    We have a stringent safety plan in place to ensure that trucks from 
Mexico that enter the United States under our limited, year-long 
demonstration program are safe to make deliveries. Our plan includes 
conducting safety audits in Mexico before the company is granted 
authority to operate beyond the current 25-mile restricted border zone. 
The trucks must be insured by a U.S.-licensed insurance firm and they 
must meet all U.S. safety standards. And, as we already do now at 
border crossings, we will continue regular inspections of vehicles and 
drivers.
    In addition, our fiscal year 2008 budget request includes $32 
million for the Border Enforcement Grants Program which will support 
State efforts, along with our own Federal force, to enforce compliance 
by foreign carriers with the Federal Motor Carrier Safety Regulations, 
operating authority requirements, and insurance rules. We estimate that 
the States will conduct approximately 350,000 vehicle and driver 
inspections at the Northern and Southern Borders as well as an 
estimated 30,000 driver license/authority/financial responsibility 
checks at the border. Close cooperation between Federal and State 
agencies will continue to be necessary to ensure safe and secure cargo, 
vehicles, drivers, and authorized carriers cross our international 
borders.
                  safety through innovative technology
    FMCSA is working with the States and partners in private industry 
to advance innovative safety technologies that have the potential to 
reduce serious injury and fatal crashes involving large trucks. We 
recently tested and evaluated a number of these on-board safety systems 
and the data is impressive.
    Roll stability control systems and electronic stability control 
systems are two different types of automated control systems that 
reduce the vehicle's throttle and apply brakes without driver 
intervention to decelerate the vehicle if a high rollover risk is 
detected. Crashes caused by excessive speed in curves, evasive 
maneuvers, and loss of vehicle control are typical conditions that are 
often addressed by stability control systems. The system tested was 
estimated to potentially reduce about 20 percent of rollover crashes 
that are caused by driving too fast around a curve. And it could 
potentially reduce roadway departures by about 33 percent. Presently, 
we are aware of about 40,000 units of this technology being sold.
    Another technology--with approximately 70,000 units distributed--is 
a forward collision warning system. When a large truck with the system 
approaches a slower moving vehicle, urgent warnings are issued from the 
system. The purpose of these warning systems is to improve driver 
behavior, by providing feedback about safe following distances to 
drivers. Our recent field test showed that this system helped drivers 
reduce rear-end collisions by approximately 21 percent, and drivers who 
used the system maintained longer following distances between their 
vehicle and a vehicle in front.
    Finally, lane departure warning systems warn drivers if they are 
about to deviate from the lane. Our field test showed that the systems 
have the potential to reduce 21 percent to 23 percent of single vehicle 
roadway departure crashes.
                  safety priorities--fiscal year 2008
    Our fiscal year 2008 funding request will provide the necessary 
resources to implement key priorities to increase safety including: (1) 
continuing our focus on driver safety in all programs, by conducting 
even more driver roadside enforcement and inspections in cooperation 
with our State and local partners; (2) intensifying our focus on 
motorcoach safety by prioritizing our Motor Carrier Safety Assistance 
Program and Federal activities in this area, while also focusing 
enforcement efforts on higher risk curbside bus operators; (3) testing 
our Comprehensive Safety Analysis 2010 initiative, which will provide a 
new approach to the safety fitness rating--and allowing a broader 
enforcement exposure to the motor carrier industry; and (4) optimizing 
our organizational structure to increase efficiency and give the 
American taxpayers the biggest safety increase possible for their 
investment in FMCSA.
                              driver focus
    Recent studies, including FMCSA's Large Truck Crash Causation Study 
(LTCCS), continue to emphasize the part that drivers play in crash 
causation and avoidance. In the LTCCS, commercial motor vehicle (CMV) 
driver action or inaction was determined to be the ``critical reason'' 
for the crash in 87 percent of the crashes where the crash was 
attributed to the CMV. In fiscal year 2008, FMCSA will address driver 
safety knowledge ``gaps'' found by a Technical Working Group of 
government and private partners. We will hold public listening sessions 
and a major public conference to define what actions will address these 
knowledge gaps and obtain stakeholder commitments to partner with FMCSA 
to implement the action items quickly and efficiently. FMCSA will also 
work with our State partners to ensure that they conduct more driver 
inspections at the roadside as specified in their respective Commercial 
Vehicle Safety Plan (CVSP).
    Our focus on drivers also includes initiatives to improve oversight 
of medical conditions that affect CMV safety. These initiatives will 
increase safety by helping to reduce the number of driver's who have 
medical conditions which adversely impact their ability drive safely. 
We currently have three major initiatives under way:
Medical Review Board
    Under this initiative we will revisit all of our regulations in the 
medical arena to ensure they reflect the most recent scientific 
information. The Medical Review Board is a five-member panel of 
experts, authorized by SAFETEA-LU, who advise FMCSA on medical 
standards and emerging medical issues. We announced the selection of 
the MRB members last year and the Board will be holding its fourth 
public meeting later this month. On the Board's agenda right now are 
diabetes, cardiovascular issues and Schedule II medications.
National Registry of Certified Medical Examiners
    Our second initiative, also supported by SAFETEA-LU, is the 
establishment of a National Registry of Certified Medical Examiners. 
The Registry will provide a list of medical examiners who are 
authorized to perform the physical qualification examination of the 
more than 6 million truck and motorcoach drivers operating in 
interstate commerce. Our goal is to maintain ongoing competency of 
medical examiners through training, testing, certification and 
recertification. This will ensure that medical examiners fully 
understand, and stay current with, medical standards.
Merger of the CDL and Medical Certificate
    This initiative would merge truck drivers' medical information with 
the CDL data system. Under the new system, when a driver gets his or 
her medical certification it would be sent to the State's division of 
motor vehicles, which would then be required to show on the CDL that 
the driver continues to be medically certified. If a driver's medical 
certificate expired, the State would be required to downgrade the CDL 
until the driver provided proof of his or her medical qualifications to 
operate commercial vehicles in interstate commerce.
CDLIS Modernization
    FMCSA continues to work cooperatively with the States to implement 
a variety of activities designed to advance the agency's driver safety 
goals and effectively implement the program enhancements included in 
SAFETEA-LU. These efforts include the modernization of CDLIS to enable 
FMCSA and the States to take advantage of new technological advances 
and expand CDLIS storage capacity while increasing performance, 
responsiveness and adaptability to meet current and future 
requirements; development of CDL learner's permit rule to establish 
uniform procedures for State issuance of learner's permits and CDLs, 
including Social Security Number verification requirements and fraud 
prevention initiates; and establishment of the CDL Task force to enable 
us to take advantage of the knowledge, experiences, and energies of the 
varies interest groups to identify ways to improve the effectiveness of 
the CDL program.
                               bus safety
    Several high profile, and tragic, incidents underscored for all of 
us the importance of bus passenger safety. Even so, we should keep in 
mind that mile for mile, motor coaches are the safest form of 
commercial passenger transportation. Buses account for more passenger 
traffic in the United States than all other commercial modes of 
transportation combined. In response to recent motorcoach incidents, 
FMCSA has increased its bus safety enforcement activities by 
prioritizing MCSAP and Federal activities in this area; by improving 
the method for selecting passenger carriers to inspect; by performing 
more compliance reviews of bus companies; and by improving training for 
motorcoach drivers.
    In fiscal year 2006 FMCSA and our State partners conducted over 
125,000 bus inspections. In 2007 we will conduct a compliance review of 
every motor coach operator that has not been rated.
    In addition, FMCSA has taken important steps to focus on enforcing 
regulations that apply to curbside bus operators that provide fixed-
route service among major cities in the northeast such as New York, 
Boston, Philadelphia, and Washington, DC. FMCSA and a coalition of 
State and local police agencies have formed a strike force performing 
inspections at the roadside and compliance reviews and enforcement 
actions against these companies. This initiative will continue into 
2008.
             comprehensive safety analysis 2010 and compass
    Every organization should continuously strive to improve how it 
does business, and FMCSA is no exception. In fiscal year 2008, FMCSA 
will be midway through development of its Comprehensive Safety Analysis 
(CSA 2010) effort, which will lead our agency into a more extensive, 
effective and efficient approach to carrying out compliance and 
enforcement programs. The goal of CSA 2010 is to touch more regulated 
entities through a broader array of enforcement and educational 
interventions while optimizing FMCSA resources.
    While CSA 2010 looks to improve the way that we do business, 
COMPASS is our program that looks to align and improve our Information 
Technology (IT) systems. COMPASS will allow FMCSA to take advantage of 
the opportunities that today's technology has to offer to improve 
access to information and accelerate data quality improvements to 
Federal and State roadside inspectors, auditors and safety 
investigators. Both of these programs are multi-year efforts designed 
to bring about better execution of programs, tax dollars savings and 
most importantly to save lives by reducing the number of crashes.
                       organizational excellence
    Although a young agency, we recognize the importance of continuous 
improvements brought about through assessing our strengths and 
weaknesses. In addition to modernizing processes and procedures, 
another agency priority is to scrutinize our organizational structure 
to look for ways to improve our organizational effectiveness. As 
priorities change, the structure of FMCSA must change as well in order 
to achieve maximum safety results. Every facet of the agency will be 
reexamined to deliver improved performance within the boundaries of the 
agency's resources.
    FMCSA dedicates approximately 5.2 percent of its budget to 
Organizational Excellence which addresses improving the internal 
workings of the agency. FMCSA will undertake activities for continuous 
organizational improvement. Our organizational improvement activities 
will result in a more highly-trained and motivated workforce, enhanced 
cost-control measures, and improved decision-making processes, leading 
to more successful completion of our mission objectives. In addition, 
these activities make the agency a significant contributor to DOT's 
achievement of a ``green'' rating for elements of the President's 
Management Agenda (PMA).
                               conclusion
    Madam Chairman, I wish to express my appreciation for all that this 
committee has done in supporting FMCSA. In our seven years as an 
independent modal agency within DOT, FMCSA and the dedicated men and 
women of State and local law enforcement agencies, Departments of Motor 
Vehicles, State DOTs, and other State and local partners have made 
great strides toward reducing fatalities and injuries on our Nation's 
highways. Your continued investment in the agency will result in added 
safety emphasis on our Nation's highways. I look forward to working 
with you to achieve our mutual goals and would be happy to respond to 
any questions you may have. Thank you.

    Senator Murray. I will now hear from Mark Rosenker, 
Chairman of the National Transportation Safety Board.
STATEMENT OF HON. MARK V. ROSENKER, CHAIRMAN, NATIONAL 
            TRANSPORTATION SAFETY BOARD
    Mr. Rosenker. Good morning, Chairman Murray, Ranking Member 
Bond. Thank you for allowing me this opportunity to present 
testimony on behalf of the NTSB.
    It is my privilege to represent an agency that is dedicated 
to the safety of the traveling public. I am particularly proud 
to lead the Safety Board because when tragedies occur and the 
public begins to question their confidence in our 
transportation systems, the Safety Board helps restore that 
public confidence. It does that by conducting thorough, 
objective investigations and making recommendations to fix the 
system so similar tragedies will not happen again.
    For example, when the Big Dig tunnel ceiling panels 
collapsed in Boston last year, Congress immediately turned to 
the Safety Board to investigate this tragedy because of its 
reputation for thorough independent investigations. This 
accident occurred on July 10, 2006 when a section of the I-90 
connector tunnel became detached and fell onto the roof of a 
sedan, killing one of two occupants. A total of about 26 tons 
of concrete and suspension hardware fell onto the vehicle.
    Highway accidents present their own challenges and unique 
opportunities for the Board. Every day there are approximately 
19,000 accidents on our Nation's highways, causing over 43,000 
fatalities and 3 million injuries each year.
    The economic cost of these accidents is estimated to be 
about $231 billion a year, or over $800 for every person living 
in the United States.
    In contrast to other modal investigations, virtually all of 
the 7 million highway accidents are investigated at the State 
and local level. Because of the Board's small size, our 
effectiveness depends upon our ability to select the most 
appropriate accidents and issue safety recommendations that 
will make a substantial contribution to the safety of our 
nation's highway system.
    Last year, we highlighted the following highway safety 
issues: Motor coach fires; motor coach maintenance and 
oversight by FMCSA; cell phone use by bus drivers; median 
barriers; toll plaza designs; collision warning systems for 
trucks; highway vehicle and passenger vehicle incompatibility; 
highway construction oversight; and motorcycle safety.
    Let me just touch on a few of these issues. The Board 
addressed the motor coach issue in the 2005 accident 
investigation near Dallas, Texas, where a motor coach was 
carrying elderly evacuees away from the predicted path of 
Hurricane Rita. Twenty-three elderly passengers were unable to 
escape the fire and died.
    As a result of its investigation, the Board made a number 
of recommendations to NHTSA: The first, develop a fire 
protection standard for motor coach fuel systems; two, develop 
a fire detection system to monitor the temperature of wheel 
well compartments; and, three, evaluate motor coach emergency 
evacuation designs by conducting simulation studies and 
evacuation drills.
    We also adopted a recommendation to FMCSA to continue to 
gather and evaluate information on the causes, frequency, and 
severity of bus and motor coach fires, and to conduct an 
ongoing analysis of that data. As a result of this 
investigation, the Board also highlighted shortcomings in the 
oversight of the motor coach industry.
    The Board concluded that FMCSA's compliance review system 
does not effectively identify unsafe motor carriers and prevent 
them from operating.
    On September 12 and 13 of last year, the Safety Board held 
a public forum on motorcycle safety. Recent data indicates that 
the increase in fatalities among motorcycle riders far exceeded 
that of any other form of transportation. In 2005, 4,553 
motorcyclists died in crashes. And the rate of motorcycle 
fatalities has increased by more than 25 percent since 1997.
    The goal of the forum was to gather information about 
ongoing motorcycle safety research and initiatives, as well as 
safety countermeasures that may reduce the likelihood of 
motorcycle accidents and fatalities. Finally, I am very, very 
optimistic that recent developments in technology will help us 
move beyond crash mitigation and enter a new era where 
technology will help us prevent accidents from occurring in the 
first place.
    Areas where the Board has already made recommendations 
involving new technologies include the use of electronic 
onboard recorders to increase the compliance of commercial 
drivers with the hours of service regulations; collision 
warning systems for trucks to help prevent rear-end collisions; 
and finally, electronic stability control for passenger 
vehicles to help drivers maintain control of their cars.

                           PREPARED STATEMENT

    In conclusion, we have a great mission at the NTSB. We 
enjoy an excellent reputation and have accomplished much during 
our 40 years that we have been in business. I am very proud to 
work with the dedicated men and women of this agency. I have 
said this before and I will continue to say it: They are the 
best of the best.
    I would be delighted to respond to any of your questions.
    Senator Murray. Thank you very much, Mr. Rosenker.
    [The statement follows:]
              Prepared Statement of Hon. Mark V. Rosenker
    Good morning Chairman Murray, Ranking Member Bond, and Members of 
the Subcommittee. Thank you for allowing me this opportunity to present 
testimony on behalf of the National Transportation Safety Board 
regarding the agency's appropriation needs for fiscal year 2008. It is 
my privilege to represent an agency that is dedicated to the safety of 
the traveling public.
    The NTSB is an independent Federal agency charged by Congress with 
investigating every civil aviation accident in the United States and 
significant accidents in other modes of transportation--railroad, 
highway, marine, and pipeline, and issuing safety recommendations to 
prevent future accidents. The Safety Board also oversees the assistance 
to victims and their families following commercial aviation accidents 
and also acts as the Court of Appeals for airmen, aviation mechanics 
and mariners whenever certificate action is taken by the Administrator 
of the Federal Aviation Administration (FAA) or the U.S. Coast Guard 
Commandant or when civil penalties are assessed by the FAA.
    Since its inception in 1967, the Safety Board has investigated 
about 130,000 aviation accidents and thousands of surface 
transportation accidents. In addition, the Safety Board has issued more 
than 12,600 safety recommendations in all modes of transportation with 
an 82 percent acceptance rate for our recommendations.
    Let me say that our Nation's transportation system is very safe, 
and the men and women who work hard every day to operate the 
transportation system and keep it safe have our sincere admiration and 
appreciation. That said, the Safety Board is committed to the idea that 
there is always room for improvement. For this reason, we conduct 
careful, scientific investigations of transportation accidents to 
determine how the transportation system can be made even safer.
    This winter, the Board held public meetings (known as ``Sunshine'' 
meetings) to complete our investigations of the motorcoach fire on 
Interstate 45 near Wilmer, Texas during the Hurricane Rita evacuation; 
the 2005 head-on collision of two freight trains in Anding, 
Mississippi; the crash of Pinnacle Airlines flight 3701 at Jefferson 
City, Missouri, and the 2006 engine room fire aboard the commuter ferry 
SPV Massachusetts in Boston Harbor. Also, we held Sunshine meetings for 
the crash of Circuit City Cessna 560 at Pueblo, Colorado and the Bali 
Hai Bell 206 and Heli-USA Aerospatiale AS350 helicopter accidents in 
Hawaii.
    On March 27, 2007, we held a public forum on runway incursions, a 
particularly important item on our list of Most Wanted Transportation 
Safety Improvements. In the months ahead, my colleagues and I will hold 
Sunshine meetings to conclude several important investigations, 
including the October 2006 accident that killed New York Yankees 
pitcher Cory Lidle and a pilot-rated passenger; the Chalk's Ocean 
Airways seaplane accident that killed 20 people in Miami, Florida; and 
another the derailment of a Chicago Transit Authority Blue Line train; 
and our investigation of last year's tunnel ceiling collapse of the I-
90 connector tunnel that killed a motorist in Boston, Massachusetts.
    As required by international agreement, the Board often sends 
investigators to other countries to investigate aviation accidents. 
When a U.S.-manufactured, U.S.-registered, or a U.S.-operated aircraft 
is involved in an accident in a foreign country, the Safety Board leads 
the U.S. participation in the investigation. Each year, our 
investigators participate in about 20 major foreign aviation accidents. 
For example we are participating in an investigation involving the 
September 29, 2006 midair collision in Brazil between a Boeing 737-800 
operated by Gol airlines and an Embraer Legacy 600 business jet owned 
and operated by Excelair of Long Island, New York. And since the 
beginning of the calendar year, 3 Boeing 737s have crashed in 
Indonesia. Of those three airplanes, two were being operated by Adam 
Air, and one by Garuda airlines. Because the airplanes involved in 
these accidents were certificated and manufactured in the United 
States, we are leading the U.S. efforts to investigate these accidents.
                             safety issues
    I would like to begin by discussing safety issues that relate to 
the transportation modes that are represented here today.
    Last year, the Safety Board testified before the House Committee on 
Energy and Commerce, Subcommittee on Energy and Air Quality, regarding 
the safety benefits of excess flow valves (EFV) on natural gas 
distribution pipelines. EFVs are an effective way to save lives and 
protect property, and the Safety Board has long advocated their use. 
The Board is pleased with the passage of legislation last year 
mandating the installation of EFVs on natural gas pipelines serving 
single-family residential housing, and we look forward to the safety 
improvements that will result.
    As in other transportation modes, the Board has called upon the 
Pipeline and Hazardous Materials Safety Administration to set working 
hour limits for pipeline controllers. Such limits, if based on fatigue 
research, circadian rhythms, and sleep and rest requirements, could 
reduce the number of accidents caused by human fatigue.
    The Safety Board has recently addressed a number of important 
highway safety issues. These include highway median barriers, toll 
plaza designs, collision warning systems, vehicle incompatibility, 
highway construction oversight, cell phone use by bus drivers, and 
motorcoach occupant protection.
    On March 2, 2007, our investigators were at the scene of a 
motorcoach accident in Atlanta that involved a baseball team from 
Bluffton University in Ohio. The motorcoach took an exit ramp from the 
left lane, failed to stop at the end of the exit ramp, collided with 
and overrode a concrete bridge rail, and fell 30 feet to the highway 
below. Seven occupants were killed. That investigation continues. 
Because some of the occupants were ejected or partially ejected from 
the vehicle, safety issues in the investigation will likely include 
topics such as improved occupant protection, window glazing, emergency 
exit design, and stronger motorcoach roofs. All these topics have been 
addressed in prior safety recommendations to the National Highway 
Traffic Safety Administration (NHTSA).
    Additionally, on September 23, 2005, a fire engulfed a motorcoach 
being operated by Global Limo Inc. The bus was carrying 44 residents 
and staff from an assisted-living facility in Bellaire, Texas away from 
the predicted path of Hurricane Rita near Houston, Texas, many of which 
were not ambulatory. Twenty-three elderly passengers were unable to 
escape the fire and died.
    Our investigation revealed that Global Limo Inc. was in violation 
of several safety regulations before the accident. For example, the 
company did not ensure that their drivers were properly licensed to 
drive motorcoaches and also did not retain vehicle maintenance and 
repair records as required by Federal Motor Carrier Safety Regulations 
(FMCSRs). In addition, there was no maintenance program to properly 
service the vehicle. The lack of such a program directly contributed to 
this catastrophic fire and loss of life.
    Also contributing to the accident was the Federal Motor Carrier 
Safety Administration's (FMCSA) ineffective compliance review system, 
which provided inadequate safety oversight of this passenger motor 
carrier. The Board concluded that FMCSA's current process does not 
effectively identify unsafe motor carriers and prevent them from 
operating. In fact, despite many driver and vehicle safety violations, 
FMCSA had rated Global as ``satisfactory'' prior to the accident. The 
Board reiterated its long-standing recommendation to FMCSA to change 
the safety fitness rating methodology so that either adverse vehicle or 
driver performance problems alone are sufficient to result in an 
overall unsatisfactory rating for a carrier.
    As a result of its investigation, the Board made a number of 
recommendations to the NHTSA to develop a fire protection standard for 
motorcoach fuel systems, and develop fire detection systems to monitor 
the temperature of wheel well compartments. We also asked FMCSA to 
continue to gather and evaluate information on the causes, frequency 
and severity of bus and motorcoach fires, and conduct ongoing analysis 
of that data. Finally, the Safety Board asked NHTSA to evaluate 
motorcoach emergency evacuation designs by conducting simulation 
studies and evacuation drills.
    In another recently completed accident investigation, the Board 
focused on cell phone use by bus drivers. On the morning of November 
14, 2004, a motorcoach was traveling on the George Washington Memorial 
Parkway in Alexandria, Virginia, as it approached an overpass. The bus 
driver passed low clearance warning signs, and did not move to a lane 
with adequate clearance. The bus struck the underside of the bridge. 
The bus driver was talking on a hands-free cellular telephone at the 
time of the accident. Of the 27 passengers, 10 received minor injuries 
and 1 sustained serious injuries.
    The Safety Board believes that, except in emergencies, operators of 
commercial passenger-carrying vehicles and school busses should be 
prohibited from using cellular telephones while transporting 
passengers, and has called upon FMCSA to publish regulations to that 
effect. The Safety Board has also made significant progress in the 
States on child booster seats, primary seat belt laws, teen driving and 
hard-core drinking and driving.
    The Safety Board recently testified before the House Committee on 
Transportation and Infrastructure regarding the reauthorization of the 
Federal Railroad Administration (FRA). Among the issues the Board has 
been particularly concerned about is human fatigue, which has been 
identified as a safety issue in many railroad accidents over the years, 
including the June 28, 2004, accident in Macdona, Texas. That accident 
resulted in the deaths of three people from chlorine gas inhalation. 
Many accident investigations have identified human performance failures 
related to fatigue, medical conditions such as sleep apnea, the use of 
cell phones, the use of after-arrival track warrants in dark territory, 
loss of situational awareness, and improperly positioned switches as 
causal to railroad accidents. Human fatigue was on the Safety Board's 
Most Wanted List of Safety Recommendations but removed when the FRA 
stated it did not have the statutory authority to regulate hours of 
service. The Safety Board has testified before Congress that the FRA 
should be given the statutory authority to regulate these hours of 
service. We understand the FRA is seeking such authority.
    There are technological solutions that have the potential to reduce 
the number of serious train accidents by providing redundant systems to 
protect against human performance failures. One of these technologies 
is positive train control (PTC). The implementation of PTC systems has 
been on the Board's Most Wanted list for 17 years. Its objective is to 
prevent train collisions and over-speed accidents by requiring 
automatic control systems to override mistakes by human operators. 
While there has been some progress by some railroads, we note that PTC 
systems are needed on railroad systems across the entire United States.
    As in other transportation modes, hours of service regulations are 
also a safety issue for marine. The Board called upon the U.S. Coast 
Guard (Coast Guard) to establish scientifically based hours of service 
regulations for maritime workers. The Coast Guard has sponsored 
research in fatigue and developed its Crew Endurance Management (CEM) 
system based on its research. The CEM system helps manage the risk 
factors that can lead to human error and performance degradation in 
maritime work environments.
    Additionally, the Coast Guard and Maritime Transportation Act of 
2004 allows the Coast Guard to set maximum hours of service for towing 
vessel operators based on the results of a demonstration project using 
the CEM system on towing vessels. The demonstration project was 
completed in 2005, and a report of the results was submitted to 
Congress a year ago. The report revealed promising results in terms of 
reducing fatigue-related risks. In addition, a Commandant Instruction 
issued in March of last year states that ``Commanding officers and 
officers-in-charge shall . . . implement a CEM program to manage 
endurance risk at their unit.'' The Safety Board would like to see the 
Coast Guard take the remaining action on this recommendation by issuing 
formal fatigue management regulations for all domestic operators.
    Finally, I would like to address several important aviation safety 
issues, including runway incursions, fuel tank flammability, icing and 
flight recorders.
    In March 1977, in what remains the world's deadliest aviation 
accident, two passenger jumbo jets collided on a runway at Tenerife, 
Canary Islands. That accident resulted in the deaths of 583 passengers 
and crew. The deadliest U.S. runway incursion accident was a collision 
between a USAir 737 and a Skywest Metroliner commuter airplane at Los 
Angeles International Airport in February 1991, killing 34.
    Most recently, in July 2006, at O'Hare International Airport, a 
United 737 passenger jet and an Atlas Air 747 cargo airplane nearly 
collided. The 747 had been cleared to land and was taxiing on the 
runway towards the cargo area when the 737 was cleared to take off on 
the intersecting runway, over the 747. The pilot of the United 737 
passenger jet took evasive action by lifting off early. A collision was 
avoided by less than 200 feet.
    A total of 21 runway incursion recommendations have been on our 
Most Wanted List of Safety Recommendations; only one recommendation 
remains open. That recommendation urges the FAA to ``require, at all 
airports with scheduled passenger service, a ground movement safety 
system that will prevent runway incursions; the system should provide a 
direct warning capability to flight crews. In addition, demonstrate 
through computer simulations or other means that the system will, in 
fact, prevent incursions.''
    The FAA has taken action to inform pilots and controllers of 
potential runway incursions, improve airport markings, and install the 
Airport Movement Area Safety System (AMASS) and Airport Surface 
Detection Equipment Model X (ASDE-X). These systems are an improvement, 
but are not sufficient as currently designed to prevent all runway 
incursions.
    The runway incursion rate in the United States has not appreciably 
changed over the past 4 years, and stands at about 5.2 runway 
incursions per 1,000,000 tower operations, despite these improvements. 
The issue is one of reaction time. Safety Board investigations have 
found that AMASS is not adequate to prevent serious runway collisions, 
because too much time is lost routing valuable information through air 
traffic control. In recent incidents, AMASS did not alert controllers 
in time to be effective, and the situations were instead resolved by 
flight crew actions that sometimes bordered on heroics, or luck.
    On Tuesday, March 27th, the Safety Board held a public forum on 
runway incursions. Thirty years after the terrible accident in 
Tenerife, runway incursions remain a major safety issue in aviation.
    Since 1989, aircraft fuel tank explosions have resulted in 346 
fatalities. On July 17, 1996, Trans World Airlines, Inc. (TWA) flight 
800, a Boeing 747-131, crashed in the Atlantic Ocean near East 
Moriches, New York. All 230 people on board were killed. The Safety 
Board found that the cause of the accident was an explosion of the 
center wing fuel tank, resulting from ignition of the flammable fuel/
air mixture inside the tank. The source of ignition for the explosion 
could not be determined with certainty; however, the source was most 
likely a short circuit of electrical wiring associated with the fuel 
quantity indication system.
    The investigation of the TWA flight 800 accident and assistance on 
2 fuel tank explosions overseas found that a fuel tank design and 
certification philosophy that relies solely on the elimination of every 
ignition source, while accepting the existence of fuel tank 
flammability, is fundamentally flawed because experience has 
demonstrated that it is impossible to eliminate all potential ignition 
sources. Further, the risk of explosion exists for all fuel tanks, not 
just center or fuselage fuel tanks. The Safety Board believes that 
operating transport-category airplanes with flammable fuel/air vapors 
in fuel tanks presents an avoidable risk of explosion. Our 
recommendation asks the FAA to give significant consideration ``to the 
development of airplane design modifications, such as nitrogen-inerting 
systems and the addition of insulation between heat-generating 
equipment and fuel tanks. Appropriate modifications should apply to 
newly certificated airplanes and, where feasible, to existing 
airplanes.'' In 2002, the FAA developed a prototype inerting system 
that could be retrofitted into existing airplanes.
    The comment period on the FAA's notice of proposed rulemaking 
(NPRM) for the flammability reduction installation is now closed and 
the Board is awaiting a final rule.
    Another issue concerns the safety of aircraft operating in icing 
conditions. Aircraft icing issues have been on the Safety Board's Most 
Wanted List since 1997. The recommendations to the FAA include the need 
to expand the icing certification envelope to include freezing drizzle/
freezing rain and mixed water/ice crystal conditions, as necessary; 
revise regulations to ensure that airplanes are properly tested for all 
conditions in which they are authorized to operate, or are otherwise 
shown to be capable of safe flight into such conditions; conduct 
additional research with the National Air and Space Administration 
(NASA) to identify realistic acceptable ice accumulations; and ensure 
turbopropeller-driven airplanes meet the requirements of the revised 
icing certification standards.
    Aircraft icing is a threat to both general and commercial aviation 
pilots. As recently as January 2, 2006, an American Eagle Saab-Scania 
SF340 encountered icing conditions during the en route climb after 
departure from San Luis Obispo, California. The airplane departed 
controlled flight at an altitude of about 11,500 feet mean sea level 
and the flight crew recovered control of the airplane at about 6,500 
feet. There were no injuries to the 29 persons on board and the 
airplane did not sustain any damage. The airplane rolled to 86 left 
wing down and then 140 right wing down. The loss of control lasted 
about 50 seconds, and the airplane lost 4,000 feet.
    A final issue affecting aviation safety is that of flight 
recorders. The Safety Board has investigated numerous accidents in 
which turbine-powered aircraft did not have either a cockpit voice 
recorder (CVR) or a flight data recorder (FDR) at the time of the 
accident. One such investigation involved a crash in Minnesota that 
killed 8 people including Senator Paul Wellstone.
    The Safety Board has investigated several events in which the 
aircraft was not required to be equipped with a flight recorder, but a 
CVR was installed voluntarily on the aircraft. Data from these CVRs has 
provided invaluable information during its investigations. 
Specifically, in the initial phase of an investigation, CVR data may 
reveal operational issues that are not readily apparent from the 
physical evidence found at an accident site, enabling the Safety Board 
to narrow the focus of its investigation and issue safety 
recommendations quickly to prevent similar accidents. In some 
instances, CVR data may be the sole source of evidence for a probable 
cause determination.
    Considering the number of accidents occurring in smaller aircraft, 
the Safety Board has identified the need to install crash-protected 
recording devices on all turbine-powered aircraft. Despite the clear 
advantages of requiring both a CVR and an FDR on smaller aircraft, the 
Board recognizes the economic impact and consequently has proposed that 
all smaller turbine-powered aircraft be equipped with a single crash-
protected recorder--a video image recorder--which is less expensive 
than two recorders. Such recorders obtain not only audio information 
like that from CVRs, and event data like that from FDRs, but also 
information about the environment outside the cockpit window.
                          ntsb appropriations
    Mr. Chairman, ranking member, and members of the committee, I have 
been talking about the safety of our Nation's transportation system. As 
I said, it is for the most part a safe and effective system. There are 
improvements that can be and should be made, but the American people 
already have every right to feel confident in our transportation 
system.
    One of the reasons for this confidence is a small but very 
effective independent board that was created 40 years ago this month by 
the U.S. Congress. The Congress believed that a healthy, vital 
transportation system was important to the American people and to all 
aspects of its economic system.
    This board is now recognized as a leader in accident investigation 
and transportation safety, both here and around the world. The NTSB has 
been asked to assist on hundreds of foreign accident investigations and 
has been the model for similar agencies in several other countries as 
they improve the oversight and safety of their transportation systems.
    I think that you can tell I am very proud to serve as the Chairman 
of the National Transportation Safety Board. I am proud of the work 
that we do; I am proud of what the Board has accomplished, and I am 
also very proud to work with the dedicated men and women of the agency. 
I have said this before, and I will say it again, ``They are the best 
of the best.''
    During the last two years, my colleagues and I have made a number 
of improvements at the Safety Board. We have energized and involved the 
management team that now leads the Board's strong pool of technical 
professionals. Recently, with input from all ranks, that team produced 
a new Strategic Plan for the agency. Each executive now has a 
performance plan that is linked to our Strategic Plan. The last two 
years have brought significant improvements to the Safety Board, and we 
want to continue that positive momentum, but we will need your help and 
your support to do so.
    This agency has measurably improved its efficiency and throughput 
during the last two years. In fiscal year 2005, the Members of the 
Safety Board received 120 voting items from the staff. In fiscal year 
2006, my colleagues and I received 168 such items (an increase of 40 
percent), and the staff has presented almost 100 voting items so far in 
the first half of fiscal year 2007. In fiscal year 2005, the Board 
considered 12 accident reports and studies and we issued 120 safety 
recommendations. In fiscal year 2006, we considered 21 accident reports 
and studies, and we issued 167 recommendations. So far this fiscal 
year, we have considered 12 accident reports and we have issued over 70 
safety recommendations. What's more, since the beginning of fiscal year 
2005, the Board has held 9 public hearings, forums, and symposiums on 
such topics as runway incursions, motorcycle safety, and positive train 
control.
    Better management has made our agency more efficient during a time 
of declining resources. The number of products we produce has 
increased, but our staff is now working at full capacity. Of course, 
this is a good thing, but there is a troubling side to this. With an 
investigative staff stretched as it is, we will not be well positioned 
to conduct multiple, simultaneous complex investigations.
    Our staffing numbers have been declining over the last five fiscal 
years. In fiscal year 2005, the Safety Board received an appropriation 
of just over $76 million, which enabled us to fund 418 FTEs. In fiscal 
year 2006, after recision, the Board's appropriation was less than the 
year before. That year, in order to absorb the increased cost of pay 
raises, benefits and other costs, we were forced to allow attrition to 
shrink our ranks to 387 FTEs, a reduction of 31 positions.
    To help us better manage this drop, we created a human capital 
plan. This plan allowed us to focus on hiring investigators to fill our 
most critical needs. The Safety Board has carefully managed its 
resources, and--like many agencies--has done more with less, but there 
is a point where we will simply stretch staff too thin.
    This year, the Safety Board received an appropriation of $79.3 
million under a continuing resolution. This represents a $3.3 million 
increase over the prior year, and I assure you we are very grateful to 
this subcommittee for providing us such an increase because we entered 
the year in a critical condition. Although this funding level will not 
permit us to grow beyond 396 FTEs this fiscal year, it will permit us 
to hold steady through the year.
    About 90 percent of the Board's annual budget is spent on salaries, 
benefits and fixed expenses such as rent and telecommunications. That 
leaves the remaining 10 percent available for mission related 
activities, travel, training, equipment and information technology. 
Each year, due to pay raises and inflation, the cost of agency salaries 
and fixed expenses grows by more than $3 million, regardless of our 
appropriation level.
    The President's budget requests $83 million for the Safety Board 
for fiscal year 2008. However, our best estimates indicate that our 
salaries and fixed costs will grow by a little over $3.6 million in 
fiscal year 2008. Consequently, $83 million will enable us to fund 
those increases, but we will need to hold staffing at the current level 
for yet another year under such a budget.
    Most people believe that the Safety Board is much larger than it 
actually is. They think that 1,000 or 2,000 people would be necessary 
to do all of the work that we do. So, they are shocked when they learn 
the Board has fewer than 400 people--but 400 very dedicated people. 
Although these people are willing to work very long hours at accidents 
and keep their skills current, there is only so much they can do.
    As I said earlier, most of our funding is used to pay personnel, 
and what we need now is personnel. The Board needs people with 
particular and special skills to keep up with the new technologies that 
are constantly changing and developing. For example, until fairly 
recently, all planes were made of aluminum. Now, new airliners are made 
with composite materials, the failure of which requires different 
testing methods and investigative procedures. The Safety Board needs 
additional investigators to handle the possibility of increased 
accidents after the introduction of a projected large number of very 
light jets (VLJ) that are expected to enter the service over the next 
few years. The introduction of VLJs into the national airspace system 
may require a significant use of investigative resources. Although 
small, the VLJs and their operation are complex and will require 
essentially a full team of investigators to address issues that may 
arise in composites, turbine engines, single pilot operations, Part 135 
operations, FAA oversight and air traffic control. Special attention is 
also given to new types of aircraft as they enter the commercial fleet. 
Further, we have been without a senior fire and explosion investigator 
for over 4 years, leaving us extremely vulnerable to inadequate 
coverage in any fire related investigation. Additionally, we cover the 
entire country with only one fully staffed railroad Go-Team.
    The Safety Board is a unique agency, and many of our investigators 
are highly specialized. They are not interchangeable. Someone who is 
trained in aircraft jet engines does not have the skills required to 
investigate the operation of railroad signals. Not only must we hire 
specialists with expert-level skills, new specialists must work with 
the Board for some time to fully understand the complexities of our 
accident investigations. When we are not able to hire, we lose that 
educational process that is so very important to new investigators. 
With approximately one-third of our staff eligible to retire within the 
next five years, it is essential that we take the proper steps now to 
replace these highly skilled, technical and experienced professionals.
    In closing, I want to assure the members of this subcommittee that 
my fellow board members and I are most appreciative of your support 
this fiscal year and in prior years. As you begin to make 
appropriations decisions for the coming year, we hope you will keep in 
mind the importance of this small and effective agency to the safety of 
our Nation's transportation system.
    I would be delighted to respond to any questions you may have.

    Senator Murray. Mr. Hill, in my opening statement, you 
heard me talk about the tragic accident that took the life of 
one man and injured two others on the Capitol Beltway last 
month.
    Your agency uses compliance reviews in order to keep unsafe 
trucks and unsafe truckers off of our Nation's highways. Back 
in February, you did a compliance review of BK Trucking because 
they were on your watch list for far too many accidents. The 
review that occurred at that time found almost no problems, 
resulted in no fines or penalties. And then after that fatal 
accident, your people went back and found the carrier using a 
driver with a suspended CDL, failures to maintain State record 
checks, falsified log books, multiple failures to keep driver 
vehicle safety records.
    As I asked in my opening statement, are we to believe that 
all of those violations occurred in 1 month?
    Mr. Hill. Madam Chairman, thank you for that question. I am 
aware of the issue. I have been briefed on it, and I do have 
some response to it.
    I think the first thing I would say to you is that there 
has been considerable criticism about the SafeStat system in 
recent years, as you are probably aware. And I think in this 
case, we indicated that the SafeStat system did identify this 
carrier as being a problem. It was primarily because of high 
crash incidents that we found that we went in to examine the 
carrier initially.
    The second thing is that the CDL system is supposed to be 
recording driver convictions and problems and taking action. So 
the CDL system also has its part.
    The piece that I am very concerned about and share with 
your frustration is that when we went into the carrier's 
business on February 25, basically the owner of the company 
told us that he had 8 drivers, and there were really 23, he 
withheld that information from us. And so the driver who was 
involved in the fatal crash was an owner/operator who was 
really under the employ of this carrier and should have been 
counted as a part of the driver's ongoing activities. 
Unfortunately, he withheld that information from our 
investigator.
    He showed us lease agreements that our investigator looked 
at but did not properly identify, that these were, in fact, 
under the employ of the carrier. And so we have to take an 
internal look at what we are doing with these safety 
investigators and finding these owner/operators. And that is a 
deficiency that I am prepared to address. I am going to be on a 
conference call tomorrow with all of our field staff and 
leadership and we are going to address this issue.
    What really should have happened is that the driver should 
have notified his carrier. His carrier should have then stopped 
him from driving. That did not take place. In fact, the owner 
of the company told us that in the second review we did in 
April that he withheld intentionally this information from us.
    Senator Murray. Well, in both documents that you supplied 
to my office, as well as to what you just said, you are saying 
that the owner of BK Trucking lied to your investigators, 
basically. Your investigators asked for records on 15 drivers 
since your agency's database said that they worked for BK 
Trucking, and the owner told your investigator that the 
database was in error, and the drivers did not formally work 
for BK Trucking. And that was the end of the conversation.
    I have to ask: When trucking companies that are on your 
watch list tell your investigators their data is wrong, do your 
investigators just take their word for it?
    Mr. Hill. In this case, the investigator looked at the 
lease agreements. They wanted to see independent verification. 
Lease agreements are fairly detailed documents. And the 
investigator read through them and did not see the kind of 
requirements that should have been found in the investigation. 
Yes, that is a deficiency in our process, but I would not blame 
it on the compliance review, a CR process. I think it was an 
issue that we need to address in this particular investigation.
    Senator Murray. Do you know why there was not a further 
investigation since this company was on your watch list and 
records were different according to your records and their 
records, why it was not investigated further? It appears that 
your investigators just accepted the owner's words on this.
    Mr. Hill. Our investigator looked at the lease agreements 
and did not believe that the owner/operators were, in fact, 
under the carrier's responsibility, and that was an erroneous 
assumption. They should have investigated it further or asked 
for further assistance. We are going to address that issue.
    Senator Murray. And then they did not. They did not 
investigate it any further after that?
    Mr. Hill. No, not until April after we went in the second 
time.
    Senator Murray. After the accident.
    Mr. Hill. That is correct.
    Senator Murray. Roger Scofield was the BK truck driver that 
was involved in that crash. Was he one of the drivers for whom 
your investigator at the first compliance review was seeking 
information?
    Mr. Hill. I do not know whether his name was one of them, 
but he was certainly a part of that 15 drivers that you 
referenced in your question to me. He was a part of that 15 
owner/operators that was not provided to us on the February 
compliance review that you indicated.
    Senator Murray. Well, it just--he had so many traffic 
violations and suspensions, how did that escape the attention 
of your inspectors?
    Mr. Hill. Well, we were aware of numerous inspections being 
attributed to certain drivers, but we have to make sure that 
the driver works for the carrier in question. And I am telling 
you that we were not able to make that connection due to the 
lease agreements that we looked at.
    Senator Murray. And no red flags went off for anybody?
    Mr. Hill. Yes. That is why the investigator brought it up 
to them, because the red flags were there because of these 
numerous inspections.
    Senator Murray. So what happened when you went in, red 
flags and then nothing, and then there is a fatal accident?
    Mr. Hill. Well, what I am explaining to you is that the 
safety investigator tried to make the determination that these 
particular drivers worked for this----
    Senator Murray. Was that an ongoing process that was 
occurring when the fatal accident occurred, or was that----
    Mr. Hill. I do not know the answer to that. I will have to 
find out and get back to you.
    Senator Murray. Okay. I would like to know the answer to 
that.
    Mr. Hill. Okay. Sure.
    Senator Murray. Mr. Rosenker, your agency issued 
recommendations saying that the compliance review system had to 
be dramatically improved because it was not being successful in 
identifying and taking these unsafe drivers and their companies 
off the road. But those recommendations were made back in 
February 1999. That was more than 7 years ago. And they have 
been on your most wanted list since the year 2000, and you have 
categorized the FMCSA's response as unsuccessful.
    Based on your agency's findings, is this case with the BK 
Trucking more than--the exception or more the rule?
    Mr. Rosenker. I am hesitant to say it is more the rule, but 
I will tell you that this is not an accident that we chose to 
investigate so I do not have all of the facts.
    Senator Murray. Okay.
    Mr. Rosenker. In fact, I would have to have the facts in 
order to be able to give you a good answer on what really 
happened there and does that represent what we see in other 
accidents.
    Senator Murray. Well, let me ask you: Do you believe that 
the FMCSA's inspectors are too dependent on information 
provided by the trucking companies themselves?
    Mr. Rosenker. Yes, I do believe that.
    Senator Murray. Well, can you share with this subcommittee 
what immediate improvements you want to see to the compliance 
review and enforcement systems?
    Mr. Rosenker. This is a very challenging issue, given the 
numbers of people that are at FMCSA that do this kind of work. 
It is extremely difficult to find all of the bad actors that 
are on the roads today. There needs to be, perhaps, a total 
overhaul of the system so that we can do a better job of 
beginning to understand where the bad actors are and how we can 
enforce the action to get them off the road.
    Senator Murray. All right.
    Mr. Rosenker. This is, unfortunately, a very, very large 
problem that has to be dealt with.
    Senator Murray. So you would say that the BK Trucking 
accident is just symbolic of a larger problem, I assume?
    Mr. Rosenker. Exactly.
    Senator Murray. Okay. Thank you.
    Senator Bond.
    Senator Bond. Thank you, Madam Chair.
    Chairman Rosenker, I gather you--I did not catch the exact 
number, but 460 motorcycle deaths, was it somewhere in that 
range----
    Mr. Rosenker. For which accidents are you talking about 
regarding fatalities?
    Senator Bond. On motorcycles, motorcycle deaths, yes.
    Mr. Rosenker. Approximately 4,500. I will give you the 
exact figure.
    Senator Bond. 4,500?
    Mr. Rosenker. Yes sir.
    Senator Bond. Okay. 4,500 deaths in 1 year on--for 
motorcyclists without helmets. Do you have figures on how many 
severe brain injuries with permanent impairment occurred in 
addition to that 4,500?
    Mr. Rosenker. Now, Senator Bond, I would not suggest that 
every single one of the 4,553 that died on a motorcycle were 
not wearing helmets. Many may have been wearing helmets and 
died from other injuries.
    Senator Bond. I see.
    Mr. Rosenker. So as far as the numbers that deal with 
paralyzing injuries or brain-damaged injuries, I could get that 
number. I do not have that handy.
    Senator Bond. If it is readily available, I would be very 
interested in that.
    Mr. Rosenker. Yes, sir.
    Senator Bond. I also understand that insurance companies, 
used to or formerly made a strong push in State legislatures 
for helmet laws, but do I understand that has slacked off 
recently? Is there less activity for that?
    Mr. Rosenker. I could tell you that I began in this safety 
community back in the seventies when we had safety helmet use 
laws. And there were significantly more States that had them at 
that time than they do today. And there are a number of reasons 
why they do not require safety helmets. But, in fact, we have 
seen an increase because of, one, an increased ridership; and, 
two, issues of safety helmet use.
    Senator Bond. About some 115 percent increase, something 
like that.
    Mr. Rosenker. A significant increase, yes, sir.
    Senator Bond. All right. Administrator Nason, you stated 
very clearly in your testimony the safety penalty that came 
from raising the CAFE standards beyond that achievable by 
technology, anywhere from 1,300 to 2,600 in 1 year. If Congress 
were to pass a CAFE bill this year with a mandated increase in 
CAFE standards beyond available technology, could I assume then 
that we should expect a similar safety penalty, that is, a rise 
in fatalities?
    Ms. Nason. Yes, Senator. Thank you. We are very concerned 
about the safety penalty with a straight increase in CAFE. We 
would anticipate that there would be an exacerbation of the 
problem.
    The penalty is because--and I note that it is not our term; 
it is the National Academy of Science's term and we are just 
borrowing it--occurs generally because the least expensive way 
to meet CAFE is to produce many more smaller, lighter vehicles 
which, unfortunately, crashing into the larger, bigger vehicles 
is exacerbating the problem we already have of the difficulties 
between the two, so----
    Senator Bond. Madam Administrator, the last time I checked 
on it, I found that--I believe I was told that somewhere 
between 40 and 60 percent of those fatalities occurred not in 
collisions with other larger vehicles, but were single-car 
crashes. So the--it is not just that they are smaller than 
other vehicles on the road. They are more dangerous when they 
go off the road, hit a pole, or flip over. Is that fair?
    Ms. Nason. That is true. We are worried about both 
compatibility and single vehicle crashes, particularly 
rollovers.
    Senator Bond. One of the things I was interested in--and I 
am a little bit confused--but under section 406, the States can 
spend all but $1 million on highway construction programs. In 
the section 148 of the Highway Safety Improvement Program, 
States can flex 10 percent into safety programs, including 
behavioral, that is, ``Use your seatbelts.''
    But I am told that from the States, that even though they 
could use this--these flex funds for safety belt enforcement, 
they are using--most of them are using these funds for 
additional highway construction, rather than improving the use 
of safety belts. What is your finding in that area?
    Ms. Nason. Well, it certainly depends on the State.
    Senator Bond. But how often is that being----
    Ms. Nason. For the 406 grants, we found the vast majority 
of the funding that the States are getting actually is being 
used for behavioral programs. It is close to 70 percent of the 
funding. That is their choice. We are very pleased to see that, 
but----
    Senator Bond. Yes. Under 148 they are apparently not using 
it.
    Ms. Nason. Right.
    Senator Bond. Do you have any comments on that, Chairman 
Rosenker?
    Mr. Rosenker. As far as the use of safety belts?
    Senator Bond. Yes.
    Mr. Rosenker. We have seen compliance up to 82 percent. It 
is the Board's position that all States should have primary 
safety belt use laws. When I began back--I keep talking about 
three decades ago--it almost sounds like I am back during the 
Model T days--but unfortunately----
    Senator Bond. I started even before then, so do not tell me 
about Model T days. I was there with the horse and buggy.
    Mr. Rosenker. I was part of the original group that began 
the safety belt use law advocacy program. And I can tell you 
that when we started to talk about that concept, back in the 
mid-seventies, people thought in terms that we were invading 
their castle. Their car, itself, was their own domain, and they 
had their own decision-making capability. Back during that 
period, 55,000 Americans were dying on our highways.
    Tremendous progress has been made. The combination of 
safety belt use laws, the combination of new systems with 
airbags, the combination of, in fact, much better automobiles 
that we are operating today have brought that number down. But 
I really believe, sir, if we can get to 50 States that require 
the use of the safety belt, we can bring that number down 
substantially.
    Senator Bond. Thank you, Mr. Chairman.
    Madam Chair?
    Senator Murray. Mr. Hill, I am going to return to you. I 
understand that you are working on a new program called CSA 
2010----
    Mr. Hill. Yes, ma'am.
    Senator Murray [continuing]. That is supposed to address 
some of the NTSB's concerns and criticisms. But I also 
understand that the soonest that you are going to be able to 
fully deploy this system is in 2010, and that is 11 years after 
the NTSB first issued their recommendations.
    I wanted to ask you: Why does it take your agency 11 years 
to respond to this urgent--what I see as really urgent safety--
these urgent safety recommendations?
    Mr. Hill. Well, Madam Chairman, I joined the agency in 
2003. And when I came, I was greeted with a package of 
information, something called the Compliance Review Work Group. 
This was basically a study that began as a result of the 1999 
recommendation and had been somewhat inactive. And so my 
predecessor and I revitalized that group and tried to figure 
out exactly what we need to do to come into compliance with the 
NTSB recommendations.
    Since that time, we looked at the report from that earlier 
study group that had completed the Compliance Review Work Group 
analysis, and we just felt like that we needed to look at the 
compliance review differently. We needed to have a bigger 
experience, a bigger footprint with the motor carrier industry. 
We did not see the compliance review in its current format 
achieving that, so we felt it needed to be changed 
significantly.
    Whenever you develop a national program affecting 700,000, 
potentially, motor carriers, it involves significant outreach. 
We have been having public listening sessions to make sure that 
we are communicating with the public, and how this will affect 
them.
    We also have been trying to work with our State partners 
who do the majority of the motor carrier safety assistance 
program work through the grants. And we have included them in 
our work groups.
    And then the next big piece is that we are going to do a 
demonstration of this. We are going to practice this----
    Senator Murray. What timing is this, do you think?
    Mr. Hill. Next year. Next year, 2008, fiscal year 2008.
    Senator Murray. Okay. Well, what are you doing right now to 
ensure that unsafe drivers and vehicles are removed? You are 
waiting for studies and reviews and all kinds of things. Is 
there anything you are currently doing to try----
    Mr. Hill. We----
    Senator Murray [continuing]. And remove unsafe drivers?
    Mr. Hill. We are initiating rulemakings to implement this 
Comprehensive Safety Analysis 2010. Right now, we are 
developing the regulatory text and background material for 
that. And, second, we are going to--we have already identified 
four States that we plan to use this CSA 2010 approach in next 
year.
    Senator Murray. Next year?
    Mr. Hill. Yes, ma'am.
    Senator Murray. Okay. Well, let me broaden this a little 
bit. During this subcommittee's hearing on cross-border 
trucking with Mexico, I mentioned that we need to focus on the 
safety of all trucks, not just Mexican trucks. And the 
administration has argued that we need not worry about the 
safety of Mexican trucks crossing the border because, contrary 
to what we experienced five years ago, the out-of-service rate 
for Mexican trucks is now down to between 21 and 23 percent, 
which they say is about the same as we experience with the 
United States trucks.
    Well, I want to talk for a second about what an out-of-
service rate of 21 percent really means. That means that when 
Federal and State officials inspect trucks and their drivers on 
the road today, on the roadside, more than one out of every 
five are in such deficient condition that they are ordered off 
the road immediately. Can you imagine how we would react if it 
was found that one out of every five passenger jets was 
routinely found unfit to fly? You know, I find that really 
startling.
    And, Mr. Hill, I want to ask you, do you consider an out-
of-service rate of more than 20 percent to be an acceptable 
rate for our domestic trucking fleet?
    Mr. Hill. No, Madam Chairman, I do not consider that to be 
the case. I would just say to you that when I came to the 
agency in 2003, I was concerned about the involvement of our 
State partners in the compliance review process. At that time 
we had about 3,700 reviews being done by States and a limited 
number of States involved in that process. I have really been 
working to outreach with the States to include more of them.
    I used to work in State law enforcement. I am committed to 
traffic safety. That is all I have done my entire life. And we 
are now up to 45 percent, nearly 46 percent more compliance 
reviews being done by States than were being done in 2004. We 
are making progress. In some cases, States have to change their 
legislation in order to do compliance reviews but we are making 
progress.
    We have improved the number of roadside inspections to over 
3.2 million last year. That is up about 7 percent since 2004.
    Senator Murray. And of those roadside inspections, the 
compliance rate is one out of five.
    Mr. Hill. That is correct. However, I would just point out 
to the subcommittee that these inspections typically are 
targeted inspections. In other words, we have developed 
information tools to identify the worst carriers coming 
through, so that when they inspect, they are typically not 
inspecting a random sample. They are inspecting the worst 
carriers coming through because of the indications they have 
that this particular vehicle needs to be inspected.
    Senator Murray. Mr. Rosenker, do you think a 21 percent 
rate is acceptable?
    Mr. Rosenker. We think it is unacceptable. Obviously, we 
would like to see that number come down. And, frankly, the only 
way you can get it to come down is by serious enforcement and 
penalties that, in fact, are commensurate with bad performance.
    Short of that, I cannot tell you how to go about doing 
that, other than additional people involved in the enforcement 
aspect of this issue.
    Senator Murray. Is there any other mode of transportation 
where we accept a 21 percent noncompliance?
    Mr. Rosenker. Not that I know of, Madam Chair.
    Senator Murray. Well, I just have to say that I am deeply 
concerned about this, Mr. Hill. I heard your comment that you 
are targeting trucks, but I--all of us travel on our freeways 
and highways. We are coming up on the summer season again when 
families are on the road, and I think it is incumbent upon all 
of us to ask what we are doing for our part to increase the 
safety.
    And, you know, as long as the firms think that it is going 
to be a long time before they are inspected or they do not have 
to, you know, deal with this, their bottom line for their 
industry makes them further--slide further and further away 
from where they need to be. And I think this is something that 
all of us have to really, really focus on.
    Senator Bond has gone to another subcommittee hearing, and 
I think I will have a few more questions here, and I think I 
will--let us see.
    Let me go back to my opening statement where I talked about 
the recent highway fatality data that was released by DOT that 
I thought should be pretty disturbing. The number of highway 
fatalities grew to over 43,400, at a rate of 1.45 fatalities 
per 100 million vehicle miles. Travel--that figure represents 
the highest number of fatalities since 1990.
    Back in February when Secretary Peters was here, I told her 
I was really disappointed with that. And rather than taking 
strong action, it appeared to me that the agency was really 
weakening its goal to reduce the fatality rate. And she 
responded by saying, ``I have heard you this morning about how 
important this is. I promise you I will personally go back and 
redouble our efforts to work on these safety issues.''
    Ms. Nason, can you tell me since that hearing in February 
what changes have been made in your agency that reflect the 
redoubling of efforts that the Secretary spoke about to our 
subcommittee?
    Ms. Nason. Yes. Thank you, Chairman Murray.
    The increase, as you noted, is not just an increase in the 
number of actual fatalities, but also the increase in the rate. 
And for an agency whose mission is to save lives and prevent 
injuries, this is extremely distressing. When we look at the 
data and see what we have done and where we have not been 
successful, it requires us to dig a little deeper, which is 
what we have done, to try to determine where we have had 
successes and where we have had failures.
    And the place where we know we have had success is 
passenger occupant vehicle fatalities. The place where we have 
the most control over the car is the place where we are 
actually seeing a decrease in fatalities. And we do believe we 
will get to 1.0 for occupant deaths.
    The place where we have not had success is particularly 
with motorcycles, as you've noted, and also with pedestrians. 
And Secretary Peters is an avid rider, as you know, and she has 
also experienced a terrible crash on a motorcycle.
    And she has come back to us to say--Senator Bond asked the 
fatality number for motorcycles, and it's 4,553. It is up from 
4,028. So it is, essentially, 500 additional fatalities from 
the year before. That is very distressing for the agency to 
see.
    One of the things she has done just in the last few weeks 
after her hearing is call on the motorcycle industry itself to 
work more closely with the Department and to provide free or 
substantially reduced cost helmets and training, because we 
have multiple problems when we look at motorcycle fatalities, 
which is clearly where we need to see an increase in 
improvement, where we have seen the increases.
    We have alcohol-related fatalities on motorcycles up higher 
than passenger cars. We have one in four motorcyclists who are 
not properly licensed. They go out; they buy the bike; they 
ride it out onto the highway. Nobody checks for an endorsement.
    And we are also seeing a great increase in older riders. 
And by ``older riders,'' I mean people who had bikes in their 
twenties and got off the bikes for a variety of reasons, had 
families, bought cars. Now, they have more disposable income. 
They are getting back on the motorcycles. We have seen a 400-
percent increase in fatalities in riders 55 and older.
    So what we have done to try to reach our 1.0 goal, as you 
say, is we have had to push it out a little bit, which we are 
concerned about--but we wanted to be honest and say we knew we 
were not going to make it--and to look at where we can try to 
make improvements. And those are the areas that we are 
specifically targeting to try to hit 1.0 in the years to come.
    Senator Murray. Do you think just the price of a helmet is 
keeping people from buying one when they buy an expensive bike?
    Ms. Nason. Well, some of the helmets are actually very 
expensive. They are several hundred dollars. So it is one 
issue.
    The other thing she has said, though--and we have heard 
this even from the rider community--is rider training. I have 
taken the rider training course, for example. We had a separate 
course done for some of us at DOT. It is very difficult to get 
into some of these courses, particularly during the summer when 
people go out and buy a motorcycle.
    And a lot of States just do not have the availability for 
rider training; or they have it, but it is really pricey. And a 
lot of the motorcyclists think, ``I do not need to spend $800 
to go learn how to ride my bike. It is just like getting back 
on a bike. I have done it before. I can do it again. I do not 
need it.''
    So part of her call is not just helmets, which are 
important, but also rider training, which is an area where we 
think we need to focus a lot more time and energy.
    Senator Murray. Mr. Rosenker, I see you nodding.
    Mr. Rosenker. I would agree. In fact, many, many years ago, 
I also was with the Motorcycle Safety Foundation, and we began 
the serious curriculum development to teach teachers how to 
ride and teach the program.
    I would also add that perhaps it is beyond the regulatory 
issue. I would encourage the manufacturers of automobiles and 
motor vehicles to begin the process of looking at and 
installing technologies which, in fact, can help us prevent the 
accident.
    Electronic stability control was in a number of vehicles 
long before the NHTSA chose to regulate it into existence as 
standard equipment. So I want to applaud the manufacturers that 
are beginning to look at these things, but I would also 
encourage them to go even further, not wait for regulations.
    Safety sells. I really believe that, and I think the 
marketplace proves that. Many, many, many cars have new 
technologies which, in fact, are extremely valuable in helping 
to prevent accidents.
    So we can encourage the manufacturers. And maybe it is time 
to look at other measures which may be tax credits. We look at 
that for cars that deal in fuel efficiencies. Why do we not do 
so toward policies that may encourage us to buy safer 
automobiles and get that same type of credit?
    In the long term, the insurance companies will pay out 
less. Our medical bills will be significantly lower and, in 
fact, we will begin to drop those accident numbers down from 7 
million accidents, 3 million injuries, and 43,000 fatalities. 
Technologies are out there, and if we seriously begin to 
develop and implement them, we can begin to drop those numbers 
significantly.
    Senator Murray. Thank you very much for that.
    Senator Bond and I both mentioned the accident involving 
our former colleague, now Governor Corzine. And I hope that 
really serves as a wake-up call to all of us about the 
importance of wearing seatbelts.
    NHTSA's own data suggests that over 5,000 additional lives 
could have been saved in 2005 alone if all motor vehicle 
occupants had been wearing their seatbelts.
    In my home State of Washington, we have a primary seatbelt 
law, and it has drastically improved seatbelt use, which 
increased by almost 14 percent since we enacted that back in 
2002. But I--you know, I see that only half the States now have 
primary seatbelt laws.
    I see, Mr. Rosenker, that the enactment of primary seatbelt 
laws is on the NTSB's most wanted list, requiring action by 
States. Tell us what you think about the pace at which States 
have been adopting these laws.
    Mr. Rosenker. I believe it is too slow. We have seen proof 
positive of the value of a safety belt along with an air bag. 
The system itself helps to significantly reduce fatalities and 
the number of serious injuries that we had seen years and years 
ago before these systems were developed.
    So people that do not use these technologies, people that 
are driving without their belt are really being extremely 
foolish. We have seen what happened with Governor Corzine. I 
believe when he goes back to the Governor's mansion and begins 
to carry out the duties of the Governor of New Jersey, he will 
become a very, very strong advocate for the use of safety 
belts. And I will be, hopefully, calling him to enlist his 
support.
    Senator Murray. Very good. All right. We have heard a 
little discussion about the electronic stability controls. Mr. 
Rosenker, you talked about that.
    Ms. Nason, your agency announced that it is going to be 
mandating some of these new safety technologies, is that 
correct?
    Ms. Nason. Yes.
    Senator Murray. I understand that you are giving 
manufacturers until 2012 to enact that. Why such a lengthy 
amount of time if clearly this is something that is going to 
save lives?
    Ms. Nason. We had originally proposed a 30 percent, 60 
percent, 90 percent, and then 100 percent implementation rate. 
And the 100 percent would be every vehicle on the road, a 
Malibu to a Lamborghini. And after we looked at the technology, 
we looked at the studies that have been done around the world, 
not just by NHTSA. We looked at the NTSB's recommendations.
    When we came out with a final rule, we upped the 
implementation rate significantly. It is, we believe, very 
aggressive. So instead of 30, 60, 90, we have gone to 55, 75, 
95. And then----
    Senator Murray. Even though it is 46 percent today who 
already have it as either standard or optional equipment, so 
moving to 50 does not seem like a huge hurdle.
    Ms. Nason. Right. It is 46 standard or optional, as you 
say. I think we thought it was about 40 for the new vehicles 
this year standard. And so even, we thought, getting to 55 was 
still going to be a challenge.
    There were some vehicles that we believe were never going 
to get there. In other words, we never thought there was going 
to be 100 percent implementation, if we did not mandate it. So 
from 40 to 55 percent and then up to 75 the following year, we 
knew was going to be a challenge for the manufacturers.
    But because this life-saving technology is so important, 
and it is not--we are seeing it on SUVs, for example, and we 
are seeing it on high-end vehicles, but I believe there was one 
minivan that we saw that had the technology offered. And that 
is a place, obviously, where people are putting their children.
    Senator Murray. Yes.
    Ms. Nason. It is--that was what concerned us. We were not 
seeing it in the small vehicles, and we were not seeing it in 
all the family-type cars that we needed it in, which is why we 
upped the implementation.
    And we do think that we were being fairly aggressive. We 
know there are some manufacturers who will have some challenges 
meeting it, but we thought it was important enough that we push 
harder than we originally proposed.
    Senator Murray. Mr. Hill, you mentioned in your testimony 
that this technology can be especially effective for trucks, 
keep them from flipping. Why are you not mandating this for 
trucks?
    Mr. Hill. Madam Chairman, I would just say a couple of 
things about that. First of all, we are actively in the process 
of researching to make sure that we understand what is going on 
and trying to collect data to understand the cost benefit 
analysis that would be required for any kind of a rulemaking 
effort. Then we are working closely with NHTSA. This is 
something that we are planning to do with them in terms of our 
large truck research program.
    And one of the things that we are moving forward on in 
technology enhancement is improving the braking distance of 
trucks. Thirty percent greater braking capacity is what we are 
putting out in terms of rule with NHTSA, to try to look at 
improving the braking distance of trucks.
    As far as the rollover stability, what I have been doing is 
talking about it with State partners and the industry to 
encourage adoption of these technologies.
    Senator Murray. Are we seeing that anywhere in States?
    Mr. Hill. We are. There are several States. Not so much as 
far as a legislative fix, but in terms of industry, we are 
seeing several thousands of these units. I am talking in the 
order of anywhere from 20,000 to 40,000 of these units being 
deployed, depending on the kind of technology.
    Senator Murray. It seems to me this is one area where a 
Federal mandate will make a difference--I see Mr. Rosenker 
nodding--because States will just say, ``Well, these trucks 
travel across our borders,'' and it will be the, you know, 
argument that, you know, ``We can't mandate because they go 
from Idaho to Washington in an hour.'' So would not a Federal 
mandate on this move this much quicker?
    Mr. Hill. Well, a Federal mandate would certainly put it on 
everyone's radar screen much more quickly, but in terms of 
developing that kind of a rulemaking I am going to have to make 
sure that we have the right kind of research in place to move 
forward with it, and----
    Senator Murray. And you don't think----
    Mr. Hill [continuing]. We are in the process of----
    Senator Murray [continuing]. The research is available?
    Mr. Hill. Well, I do not think----
    Senator Murray. Mr. Rosenker.
    Mr. Hill [continuing]. It is complete yet. I think we are 
still developing it.
    Senator Murray. Okay.
    Mr. Rosenker. As it relates to electronic stability control 
and crash avoidance technology, we have seen demonstrations of 
it. They seem to work fairly well. As a matter of fact, they 
even have some technologies which will assist the trailer 
itself from rolling over. So we are impressed with what we have 
seen. We would encourage, as I said earlier, the manufacturers 
to begin to put these kinds of equipment in voluntarily.
    Now, I recognize that it does add some costs to it. But as 
we continue to put more and more of these vehicles out, the 
economies of scale take over and bring down the cost of 
electronic stability control to a minimal expense.
    Senator Murray. Okay. Let me change topics for a minute. 
Back in 2004, one of my constituents--her name was Maria 
Federici--nearly lost her life when she was struck in the head 
by an unsecured piece of wood that came flying off a truck that 
she was following on a freeway. That impact was horrendous. She 
crushed her face, left her blind.
    And since this accident occurred, Washington State enacted 
legislation called Maria's Law to increase the penalties for 
unsecured loads. That law established an education campaign to 
help raise awareness about this issue. And I know this is not a 
problem just exclusive to Washington State, but one that can 
impact lives all across our country.
    The AAA Foundation for Traffic Safety conducted a study on 
this issue and reported that, nationwide, 25,000 accidents are 
caused by road debris which kills nearly 100 people every year.
    Ms. Nason, are you familiar with this issue or that study?
    Ms. Nason. Yes, I am familiar with the issue, Madam 
Chairman. We keep track for our FARs, for our fatality 
analyses, of fatalities as a result of falling debris.
    Unfortunately, what we find is in some cases, in many 
cases, the driver continues on, either unaware----
    Senator Murray. Exactly.
    Ms. Nason [continuing]. That the material has fallen or 
very deliberately trying to leave the scene. So--and in some of 
those cases, the fatalities are not coded in the exact same 
way. They are coded as a fleeing--driver struck and fled the 
scene. So I would have to go back and just check our data to 
make sure that we have the best numbers. I cannot exactly 
confirm for you that exact number.
    Senator Murray. Well, I think all of us have driven down 
the freeway trying to maneuver out from behind a truck with an 
unsecured load, and there is a good reason for that. So I would 
like to have you come back to me and tell me if your agency is 
looking at any ways on issuing some guidelines on unsecured 
loads.
    I know my State took action on this. And I would encourage 
you to look at their law, and perhaps some other ways that you 
can work to help bring up awareness of this issue for everyone 
involved.
    Ms. Nason. Absolutely.
    Senator Murray. Mr. Hill.
    Mr. Hill. Madam Chairman, I would just say to you that we 
at FMCSA did develop a uniform load securement policy change in 
the last 2 years and designed it to be harmonious with Canada 
and for it--to make it an international standard. And it did 
significantly increase the requirements for load securement. In 
fact, it created a little bit of consternation. The industry 
felt like we had gone too far. But we felt load securement was, 
in fact, a problem. It was a safety problem. It needed to be 
addressed. So we did enact further penalties. And the 
Commercial Vehicle Safety Alliance has adopted that as a part 
of their out-of-service criteria.
    Although I do not have the data in front of me, we do put 
several thousand trucks out of service because of this, and I 
can provide you with that information.
    Senator Murray. I appreciate that very much.
    Mr. Hill. Yes, ma'am.
    Senator Murray. One last topic, on electronic onboard 
recorders--because, Mr. Rosenker, I know that at one time your 
agency advocated the use of these onboard recorder devices as a 
way to give motor carrier safety inspectors a failsafe way to 
determine whether truckers were violating the hours of service. 
I think you mentioned this in your testimony. And I think these 
devices are now being commonly used throughout Europe.
    Last year, the DOT inspector general pointed out that hours 
of service violations account for 30 percent of all acute and 
critical violations. Does your agency still advocate for use of 
these devices?
    Mr. Rosenker. Yes, we do. We believe that with the new 
technology, you will get a significantly more honest picture of 
what the drivers are doing. We are interested in the hours of 
service compliance because fatigue, unfortunately, has played 
too great a role in motor coach and truck accidents that we 
have investigated.
    So we believe by a much tighter method of enforcement, and 
these electronic devices, in fact, would be right now the way 
we see it, a failsafe device that would provide significant 
data to any enforcement agency that wished to pull someone over 
and take a look at how long they had been operating. We want to 
make sure that drivers/operators have at least 8 hours of sleep 
or at least 8 hours of potential sleep during the 10 hours rest 
after their ability to drive for 11 hours.
    Senator Murray. Mr. Hill, your agency only requires those 
for people who are repeat violators.
    Mr. Hill. We have put forth a notice for the proposed 
rulemaking that would call for both--that is correct, repeat 
violators and also provides some incentives, that is correct. 
And it has just closed on the comment period, I think, 
yesterday. And we have had 800 comments to the docket so far, 
so we know this is going to be a very interesting debate. And 
we are going to move forward with it.
    Senator Murray. Yes. I understand the arguments on all 
sides and the privacy issues and people's concerns, but a truck 
driver who is fatigued does not just impact himself or the 
trucking company. He impacts all of us as citizens. And so I 
encourage you to keep moving forward and look forward to 
hearing what you have to say after that.
    Mr. Hill. Yes, Madam Chairman.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Murray. I believe there are no other members who 
are coming to this subcommittee at this time. I thank all of 
our witnesses for taking the time to be here.
    [The following questions were not asked at the hearing, but 
were submitted to the Departments for response subsequent to 
the hearing:]
              Questions Submitted to Hon. Nicole R. Nason
           Questions Submitted by Senator Frank R. Lautenberg
    Question. Do you believe that all new school buses should be 
manufactured with 3-point seat belts to protect our children?
    Answer. School bus transportation is the safest form of highway 
travel. It is far safer than riding in a passenger vehicle, walking, or 
bicycling. Each year to and from school and school-related activities 
result in about 450,000 school buses traveling some 4.3 billion miles 
and transporting 23.5 million children.
    NHTSA is considering whether school buses could be made even safer 
with 3-point seat belts. An important issue in this decision is whether 
3-point seat belts would reduce seating capacity and force children to 
use a less-safe alternative mode of transportation to get to and from 
school. NHTSA needs to involve State and local officials in this 
process, since they are most familiar with the school travel in their 
school districts and the relative risks of each. NHTSA will host a 
public meeting focused on seat belts on school buses in Washington, DC 
on July 11, 2007.
    Following that public meeting, NHTSA will issue a proposal in early 
2008 to improve protection on school buses. This proposal is expected 
to include higher seat back requirements and other changes to improve 
the occupant protection system, called ``compartmentalization,'' that 
has been required in school buses for the last 30 years. The proposal 
will also include NHTSA's position on seat belts on school buses.
    Question. Since the Federal all-rider motorcycle helmet requirement 
was repealed in 1995, motorcycle fatalities have skyrocketed. How much 
do these motorcycle crashes cost our society in terms of medical care, 
legal costs, and lost productivity?
    Answer. In 2005, over 4,500 motorcycle riders were killed and 
roughly 90,000 were injured in motorcycle crashes. Motorcycle 
fatalities have more than doubled since 1995 as motorcycle 
registrations have increased dramatically. In addition, helmet use has 
steadily declined since 2000, making the large influx of new riders 
less likely to survive a crash. NHTSA estimates that wearing a helmet 
increases the chance of surviving a crash by 37 percent
    In order to estimate the cost of injuries in motorcycle crashes, 
NHTSA is examining our databases to derive the incidence of injuries of 
differing severities. Motorcycle rider injuries are contained in our 
General Estimates System (GES), which categorizes injuries according to 
a generic police reported coding system (KABCO) that is not directly 
compatible with the coding system used for stratifying the cost of 
crash related injuries. We are developing a motorcycle rider specific 
translator to express the GES motorcycle injuries in their crash cost 
equivalent counts. We apologize for not having a final answer, but we 
are in the process of completing this analysis and will forward the 
results to you very soon.
                                 ______
                                 
                Questions Submitted to Hon. John H. Hill
              Questions Submitted by Senator Patty Murray
    Question. Mr. Hill, last year the DOT Inspector General conducted 
an audit of FMCSA to assess the progress that has been made in the 
motor carrier safety program. One of the issues that the IG raised was 
the need for FMCSA to close loopholes that allowed repeat violators to 
escape maximum penalties.
    Congress gave FMCSA the authority to use these maximum fines in 
order to target these repeat offenders. FMCSA pointed out some of the 
problems associated with implementing the IG's recommendations in full, 
largely related to how violations were documented and the ability of 
the agency to maintain some discretion in how to work with motor 
carriers to resolve problems short of issuing penalties. However, in 
understanding that repeat violators were remaining on the road, often 
having dangerous consequences, FMCSA agreed to alter its policies.
    Question. Mr. Hill, I understand that your agency has worked with 
the IG to develop a policy and implement a plan to rectify the issues 
that were identified. Has that policy been finalized and implemented?
    Answer. The policy has been drafted and FMCSA is prepared to 
implement the Office of the Inspector General's (OIG) recommendations. 
However, the agency is awaiting the findings of a recent GAO audit of 
the FMCSA's enforcement program. The GAO is expected to recommend 
further changes to FMCSA's current policy (section 222 of the Motor 
Carrier Safety Improvement Act of 1999).
    The OIG agreed that it was reasonable for the FMCSA to delay 
implementation of the OIG recommendation to modify its current section 
222 policy. It will allow the agency time to determine how OIG's 
recommendations will fit with the changes GAO may recommend.
What the OIG said
    The Office of the Inspector General recommended that FMCSA 
strengthen its repeat violator policy by developing a procedure to 
count all acute and critical violations discovered during a compliance 
review and formally admitted to in writing as a ``strike.''
    Under the current policy, FMCSA only counts violations for which 
enforcement action is initiated as ``strikes.''
What the revised policy will do (as it now stands)
    The agency will include all critical and acute violations found 
during a compliance review and formally admitted to in writing by a 
responsible company official, during the close-out of the compliance 
review as a ``strike'' for purposes of MCSIA section 222.
    Even if the investigator does not intend to take enforcement action 
against the motor carrier, he/she will be required to list all acute 
and critical violations discovered during the compliance review and 
document at least one count per regulatory Part. If the carrier 
formally admits to the violation(s), the admission will become a 
``strike'' in the carrier's history.
    If the motor carrier does not admit to the violation(s), the 
investigator will prepare a Notice of Claim (NOC), which will include 
one acute or critical violation discovered per Part. The NOC can be 
zero dollars; however it will be considered a ``strike'' once the case 
is closed under appropriate circumstances.
    Question. Given that your operations rely heavily on field staff to 
enforce its laws, what steps have you taken to ensure that these 
policies are implemented and not just identified on paper?
    Answer. As with every enforcement and compliance policy, field 
staff are directly involved in their development. With regard to the 
changes proposed to the section 222 policy, a working group--consisting 
of field and headquarters employees--has jointly developed this revised 
policy. By participating in this effort, the agency can ensure that the 
policy is workable and will be effective. In addition, FMCSA plans to 
provide in-depth training for safety investigators so they will be able 
to uniformly implement the revised policy.
    FMCSA information systems and software programs will be modified to 
accommodate, and to a large extent automate, the new policy. This will 
also assist the field staff in their work and ensure the policy is 
implemented.
    Finally, as compliance reviews and enforcement cases are developed, 
FMCSA Division and Field Administrators will be monitoring the quality 
of the compliance reviews and enforcement cases to ensure the policy is 
being followed.
                                 ______
                                 
           Questions Submitted by Senator Frank R. Lautenberg
    Question. Administrator Hill, given the similarity between the 
administration's current and previous proposals to change the hours of 
service laws for truck drivers, what are the agency's plans if your 
current proposal gets struck down again by the Federal court?
    Answer. The FMCSA believes it would be inappropriate to discuss how 
the agency would respond to an adverse decision from the Court.
    The agency will work with the General Counsel of the Department of 
Transportation and the Department of Justice to identify legal options 
for ensuring that appropriate HOS requirements are in place in the 
event the Court overturns all or part of the rule.
    Question. Mr. Hill, I understand that your agency is taking initial 
steps to prevent medically unqualified drivers from operating 
commercial vehicles. What progress is being made, and when can we 
expect these programs to be fully operational?
    Answer.
Merger of Medical Certification & Commercial Driver's License (CDL)
    On November 16, 2006, FMCSA published a Notice of Proposed 
Rulemaking (NPRM) which would establish a standard for State driver 
licensing agencies to record interstate CDL holders' medical 
certification to operate a commercial motor vehicle on the driving 
record of each individual who applies for or renews an interstate CDL. 
The information can be accessed through the Commercial Driver License 
Information System (CDLIS), a national pointer system linking 
individual State CDL databases together.
    States would be required to verify the driver has a certificate as 
part of all CDL issuance and renewal processes, and motor carriers 
would verify medical certification of drivers as part of hiring and 
annual driving record reviews. The rulemaking would enable State 
traffic enforcement agencies to verify the medical certification status 
of CDL holders as part of each driver contact during roadside 
inspections. The rulemaking would require States to downgrade 
interstate CDL holders' licenses if the driver fails to renew the 
medical certificate in a timely manner.
    Integrating medical certification verification and documentation 
into the State-administered CDL program would improve highway safety by 
preventing medically unqualified individuals from obtaining or renewing 
CDLs. It would also make it possible for enforcement personnel to 
electronically verify whether a driver is currently medically 
certified, and thus place drivers operating CMVs without current 
medical certification out-of-service. The comment period for the NPRM 
closed on February 14, 2007. The FMCSA is currently reviewing the 
comments to the docket to determine the next step in the rulemaking.
National Registry of Medical Examiners
    In response to section 4116 of SAFETEA-LU, FMCSA will publish an 
NPRM to establish and maintain a national registry of medical examiners 
that are qualified to perform examinations of CMV drivers and issue 
medical certificates. The Agency would remove from the registry the 
name of any medical examiner that fails to meet or maintain the 
qualifications established by FMCSA for being listed on the registry.
    The Registry would provide a list of medical examiners who are 
qualified to perform the physical qualification examination of the more 
than 6 million truck and motorcoach drivers operating in interstate 
commerce. The goal is to maintain ongoing competency of medical 
examiners through training, testing, certification and recertification. 
This would ensure that medical examiners fully understand the standards 
that we have in place and that they are staying current with standards 
as the rules change. The list of certified medical examiners would be 
easily accessible to CMV drivers and motor carriers so they could 
locate the ones that are closest to them and send their drivers to 
those locations.
    The FMCSA plans to publish the NPRM requesting public comment on 
the rulemaking later this year.
                                 ______
                                 
              Questions Submitted to Hon. Mark V. Rosenker
           Questions Submitted by Senator Frank R. Lautenberg
    Question. Do you believe that all new school buses should be 
manufactured with 3-point seat belts to protect our children?
    Answer. School buses are one of the safest forms on transportation 
on the road today. According to the National Highway Traffic Safety 
Administration (NHTSA), school buses transport 23.5 million children to 
and from school every year covering 4.3 billion miles. Unfortunately, 
on average, six school age passengers die in school bus crashes every 
year.
    Lap-shoulder belts are an important form of occupant protection for 
many vehicles including passenger cars and light trucks. Large school 
buses are unique in both their design and their operating environment. 
Large school buses are bright yellow and are equipped with flashing 
lights and a stop arm. Rules govern travel around a school bus loading 
or unloading passengers. Large school buses also have specific 
regulations governing roof and body strength. In addition, current 
school bus designs use a form of passive occupant protection called 
compartmentalization. On school buses, compartmentalization provides a 
protective envelope consisting of strong, closely spaced seats that 
have energy-absorbing seat backs. Compartmentalization functions well 
for a variety of school aged children ranging from the kindergartener 
to the high school senior.
    Despite the excellent safety record of large school buses, the 
Safety Board has investigated several accidents resulting in the loss 
of life of school bus passengers. These accidents typically involved a 
side impact collision with another large vehicle or a rollover. In 
these accidents, passengers did not remain completely within the 
seating compartment and therefore did not benefit from 
compartmentalization. So whenever school bus passengers remained within 
the seating compartment (and away from the intrusion area) during the 
accident sequence, they were less likely to be seriously injured than 
passengers who were either out of the compartment before the collision 
or who were propelled from the compartment during the collision.
    The Safety Board believes that current compartmentalization is 
incomplete because school bus passengers are not protected in severe 
side impacts and in rollovers. Specifically, the Safety Board requested 
that NHTSA develop occupant protection performance standards specific 
to large school buses addressing frontal impacts, side impacts, rear 
impacts and rollovers and to ensure that all new occupant protection 
systems on large school buses meet this minimum level of protection. 
The specific type of occupant protection device was not specified by 
the Board but the Board believes that the protection must be designed 
as a total system, taking into consideration the vehicle design, seats, 
sidewalls, etc. Therefore, in general, unless the entire system is 
taken into consideration, just adding seatbelts to an existing school 
bus could potentially create as many problems as it appears to solve.
    Question. Are you satisfied with the progress the FMCSA is making 
on their effort to prevent medically unqualified drivers from operating 
commercial vehicles?
    Answer. The Safety Board has long had an interest in the link 
between commercial driver fitness and transportation safety. Following 
its investigation of a 1999 motorcoach accident involving a medically 
unfit driver that resulted in 22 fatalities, the Safety Board issued 8 
recommendations to the Federal Motor Carrier Safety Administration 
(FMCSA) outlining a comprehensive medical oversight program for 
interstate commercial drivers. As an indication of the importance this 
issue holds with the Board, these recommendations have been on the 
Board's Most Wanted list for 3 years.
    Although the FMCSA has made acceptable progress on one of these 
recommendations, the remaining 7 recommendations have been classified 
by the Board as unacceptable. The FMCSA published a Notice of Proposed 
Rulemaking (NPRM) in November 2006 to amend the Federal Motor Carrier 
Safety Regulations to merge information from the medical certificate 
into the commercial driver license (CDL) process. In our February 13, 
2007 response (enclosed), the Board acknowledged that the NPRM 
attempted to address 2 of our recommendations, but in general failed to 
establish a comprehensive medical oversight program as recommended by 
the Safety Board. In the Board's opinion, neither this NPRM nor any 
other publicly announced FMCSA initiatives, create a process to review 
or track medical certification examinations or decisions, or to create 
a mechanism for reporting medical conditions identified between 
examinations.
    The Safety Board is convinced that for any commercial driver 
medical oversight program to be effective, a systematic approach is 
necessary that addresses all of the issues conveyed in the eight 
recommendations.
    Question. Since the Federal all-rider motorcycle helmet requirement 
was repealed in 1995, motorcycle fatalities have skyrocketed. How much 
do these motorcycle crashes cost our society in terms of medical care, 
legal costs, and lost productivity?
    Answer. The NTSB has not independently assessed the costs 
associated with motorcycle crashes. Nevertheless, we have been able to 
gather the following government and private research data.
    The February 2007 NHTSA Traffic Safety Facts on Motorcycle Helmet 
Use Laws (DOT HS 810 726W) states that NHTSA estimated that motorcycle 
helmet use saved $1.3 billion in 2002, and that an additional $853 
million would have been saved if all motorcyclists involved in fatal 
crashes had worn helmets. We contacted NHTSA and learned that their 
2002 estimates are their most recent cost estimates for motorcycle 
crashes.
    Dr. Ted Miller, Director of the Public Services Research Institute 
at the Pacific Institute for Research and Evaluation, presented 2005 
data on the cost of motorcycle crashes and the effects of helmets on 
costs at the NTSB Public Forum on Motorcycle Safety held September 12-
13, 2006. According to Dr. Miller, in 2005 there were 110,000 
motorcyclists involved in police-reported motorcycle crashes, with 
motorcycle crash injuries costing $17.5 billion including costs of 
medical treatment, lost work, and quality of life. Although non-
helmeted motorcyclists accounted for only 40,000 (or 36 percent) of the 
total motorcyclists involved in crashes, they accounted for $12.2 
billion (70 percent) of the costs. Dr. Miller also estimated the 2005 
average cost per crash-involved motorcyclist as $71,000 for helmeted 
and $310,000 for non-helmeted motorcyclists. In Dr. Miller's slides, he 
also cites a number of other studies that have compared crash costs and 
hospitalization costs for helmeted and non-helmeted riders. The costs 
vary by study but consistently show that non-helmeted crashes cost more 
than helmeted crashes
    The slides from Dr. Miller's presentation at the NTSB Public Forum 
on Motorcycle Safety and the forum transcript are available at: http://
www.ntsb.gov/events/symp_motorcycle_safety/symp_motorcycle_safety.htm.

                         CONCLUSION OF HEARING

    Senator Murray. And this subcommittee now stands in recess 
until Thursday, April 26, when we will take testimony from the 
Secretary of Housing and Urban Development.
    [Whereupon, at 11:19 a.m., Thursday, April 19, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

</pre></body></html>
